<html>
<title> - IMPROVING GOVERNANCE IN THE DEMOCRATIC REPUBLIC OF CONGO</title>
<body><pre>[Senate Hearing 112-368]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-368
 
        IMPROVING GOVERNANCE IN THE DEMOCRATIC REPUBLIC OF CONGO

=======================================================================


                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
73-921                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Carson, Hon. Johnnie, Assistant Secretary of State for African 
  Affairs, U.S. Department of State, Washington, DC..............     3
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Barbara Boxer..............................................    44
    Responses to questions submitted for the record by Senator 
      Richard J. Durbin..........................................    45
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Dizolele, Mvemba Phezo, fellow, Hoover Institution, Washington, 
  DC.............................................................    30
    Prepared statement...........................................    32
Gambino, Anthony W., fellow, Eastern Congo Initiative, Bethesda, 
  MD.............................................................    24
    Prepared statement...........................................    26
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, DC..........................................    16
    Prepared statement...........................................    19

              Additional Material Submitted for the Record

ECI Paper ``Technical Issues Threaten Free, Fair, and Transparent 
  Elections in the Democratic Republic of the Congo: Urgent Steps 
  Required'' submitted for the record by Anthony W. Gambino......    47

                                 (iii)


       IMPROVING GOVERNANCE IN THE DEMOCRATIC REPUBLIC OF CONGO

                              ----------                              


                      THURSDAY, DECEMBER 15, 2011

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order today's 
hearing of the African Affairs Subcommittee of the Senate 
Foreign Relations Committee, and I am honored to, once again, 
serve with my friend and colleague, Senator Isakson. I would 
like to welcome the other members of the Senate Foreign 
Relations Committee who will be joining us later and thank our 
distinguished witnesses: On the first panel, Ambassador Johnnie 
Carson, the Assistant Secretary of State for African Affairs; 
and on the second panel, Mark Schneider, Senior Vice President 
of the International Crisis Group; Mvemba Dizolele, fellow at 
the Hoover Institution; and Anthony Gambino, a fellow at the 
Eastern Congo Initiative.
    Today's hearing on the elections and governance of the 
Democratic Republic of the Congo is both timely and important. 
Last month's elections have been marred by reports of 
widespread irregularities that are symptomatic of greater 
challenges of governance. Today we will consider steps that can 
and should be taken to improve governance in the Democratic 
Republic of the Congo. We will look at U.S. policy toward this 
country that has been tragically plagued by decades of 
conflict, poverty, and insecurity.
    The recent Presidential and legislative elections in the 
Congo have become the subject of intense international 
scrutiny. Election observers from the European Union and the 
Carter Center have both recently concluded that the results are 
lacking credibility. Reports have detailed mismanagement of the 
tabulation process, restricted access for international 
observers, missing ballots, and voter turnout in some districts 
allegedly greater than 100 percent. This was clearly not a 
well-run election, and I insist that Congolese authorities must 
now engage in a thorough and transparent review of the results 
to address important unanswered questions.
    Now that the Congolese Independent National Election 
Commission, known as CENI, has released data from all polling 
stations, there should be a thorough review of the results 
taking into account reports of irregularities from the many 
observer missions. As the U.S. State Department said last 
night, the United States stands ready to provide technical 
assistance for such a review that will shed light on whether 
these irregularities were caused by a lack of organization or 
by outright fraud.
    New questions surrounding the election are emerging each 
day this week, and I have received a steady flow of both 
information and phone calls from concerned Congolese Americans 
reporting fraud and concerns about post-election violence. 
Today I call on both President Kabila and Mr. Tshisekedi to 
urge their supporters to resolve their disagreements peacefully 
and avoid an escalation of violence. The unresolved issues 
surrounding this election cannot be answered through violence 
in the streets. Instead, all sides should engage in dialogue 
about the best next steps and consider establishing a formal 
mediation process with the active support of the United States 
and the international community.
    It has been the hope of many in the DRC and around the 
world that these elections would help move the Congo further 
toward peace and stability after a terrible civil war that 
left, by some estimates, 5 million people dead between 1998 and 
2003. The United States and many in the international community 
have invested significant resources and diplomatic capital into 
improving governance and human rights in the DRC, including 
more than $13 million to support free and fair elections in 
this election cycle alone.
    A stable and democratic Congo is in America's interest 
because of its critical role in the region, its large 
population, and its vast natural resources, but also because it 
is in our interest to promote fundamental values, human rights, 
transparency, freedom of expression, and rule of law. These 
values we hold dear have been sadly routinely trampled on in 
the DRC where in some instances gender violence and rape has 
been used as a weapon of war to punish and silence civilians, 
especially women and children.
    As I said earlier, the problems with this election are 
indicative of far greater problems facing the DRC, rooted in a 
lack of strong, democratic, and transparent governance which we 
hope, in partnership, to move the Congo toward over time. 
Without government control over its territory and security 
forces, armed soldiers and militia members will continue to 
prey on Congolese civilians. Weak institutions prevent the DRC 
from upholding human rights and the rule of law and 
successfully addressing complex issues surrounding conflict 
minerals and sexual violence. The recent elections presented a 
great opportunity to further strengthen the foundation of a 
more effective and credible government, and I am concerned that 
this goal has not been achieved.
    I look forward to hearing from our experienced and talented 
witnesses about what concrete actions the United States can and 
should take to help resolve the pressing and difficult 
questions both about the conduct of the recent elections in 
order to improve governance, but also how best to mitigate 
post-election violence and strengthen the rule of law and human 
rights in the Congo. We stand with the Congolese people in 
their attempt to advance democracy and hope it can be achieved 
peacefully.
    I would now like to turn to Senator Isakson for his opening 
statement.
    Senator.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Coons.
    First of all, I want to recognize my friend, Johnnie 
Carson, the Under Secretary of State. He and I are the only two 
guys over 50 named ``Johnnie'' in Washington, DC, and I am 
proud to be one of the two. [Laughter.]
    I also want to thank Chairman Coons for calling this 
hearing. I was thinking, as I heard his opening statement, he 
and I traveled to Nigeria earlier this year where they had just 
completed their first really successful democratic election 
with the election of Goodluck Jonathan. And we later went to 
Ghana where President Mills has a great country, a great, free, 
open, transparent democracy, and the benefits that are coming 
to them.
    So we think this is a particularly important time to focus 
on the elections in the DRC, some of the alleged difficulties 
with those elections, and hopefully find ways we can lead the 
DRC to have more transparent, secure elections in the future 
and be a role model democracy in that part of Africa. As 
Chairman Coons has said, it is a critical country and a 
critical continent to the United States of America, and we 
appreciate our relationship and friendship with the DRC. And we 
understand the problems with the Lords Resistance Army, with 
lots of other things, but we also know there is a long way we 
can go in terms of democracy, ending gender-based violence, and 
having a more civil society.
    So I commend you today on calling this year. I look forward 
to hearing from my buddy, Johnnie Carson, and our other 
witnesses who are here today.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    I join you in welcoming Ambassador Carson, a real leader in 
United States-Africa policy and someone to whom we both look 
for a close and effective partnership between this committee 
and the committee and the United States Department of State. So 
I will now turn it to Ambassador Johnnie Carson for your 
opening statement.

STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY OF STATE 
 FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Carson. Thank you very much. Good afternoon, 
Chairman Coons, and also good afternoon, Ranking Member 
Isakson. It is an honor and a pleasure to appear before this 
committee this afternoon to testify before you about United 
States policy toward the Democratic Republic of the Congo.
    The DRC is the largest country in sub-Saharan Africa with a 
population of over 71 million people. It is bordered by nine 
other countries and is connected regionally and geographically 
with east Africa, southern Africa, and central Africa. It is 
also a country with enormous natural resources, valuable 
minerals, and abundant water sources. But despite its great 
potential, the Democratic Republic of the Congo is one of the 
poorest countries in Africa. The DRC's turbulent pre- and post-
independence history has never allowed it to live up to its 
economic promise. Nor has it been able to achieve the peace and 
stability its people desperately need and seek.
    The Congo's problems are centered around a lack of 
functioning state authority throughout much of the country. The 
state is unable to provide basic services such as health care, 
education, and an infrastructure. The bureaucracy is weak and 
sometimes dysfunctional and lacking in power. The security 
forces are frequently undisciplined and certainly ill-equipped 
and poorly trained and irregularly paid. Corruption is 
widespread and the problems go on from there.
    The United States, nevertheless, is the DRC's largest 
donor, having committed over $900 million this past year 
bilaterally and through multilateral organizations for 
peacekeeping, humanitarian and development assistance projects. 
We have supported the DRC's efforts to emerge from conflict and 
realize a just and lasting peace that is based on democratic 
principles, the rule of law, and respect for human rights. The 
top priorities for the United States and the DRC are promoting 
credible elections, strengthening capacity to govern and 
protect, improving economic governance, and reducing violence 
and conflict in the eastern DRC. My statement will focus this 
afternoon on our immediate concern in the DRC, the stability of 
the country after the current elections.
    On November 28, the DRC held its second democratic election 
since the end of the Mobutu era. Eleven candidates vied for the 
Presidency and almost 19,000 candidates competed for 500 seats 
in Parliament. The independent electoral commission, known 
frequently as CENI, announced the provisional results on 
December 9, declaring the incumbent, President Joseph Kabila, 
the winner with approximately 49 percent of the vote. Second 
place went to the leading opposition candidate, Etienne 
Tshisekedi, with 32 percent of the vote, and a distant third 
the CENI's provisional results accorded Vital Kamerhe with 7.5 
percent of the vote.
    Both national and international observer missions, 
including the U.S.-funded Carter Center observer mission, 
identified flaws with the vote tabulation process, as well as 
other problems that occurred ahead of the actual vote.
    On December 10, the Carter Center released a public 
statement on its assessment that the CENI's provisional results 
``lack credibility'' noting ``the vote tabulation process has 
varied across the country ranging from the proper application 
of procedure to serious irregularities.''
    The statement goes on to say, however, that, ``this 
assessment does not propose the final order of candidates 
necessarily different than announced by the CENI, only that the 
results process is not credible.''
    We share these deep concerns expressed in the Carter 
Center's assessment over the execution of the election and the 
vote tallying process. It is clear that the elections were 
deficient. The CENI did not meet internationally accepted 
standards in the vote counting process.
    We have been watching the electoral process for months. I 
have met with and spoken with all of the major candidates on 
numerous occasions. Last week I spoke with Mr. Tshisekedi and 
also with the CENI chair, Pastor Mulunda. The State Department 
has found the management and technical aspect of these 
elections to be seriously flawed, the vote tabulation to be 
lacking in transparency, and not on a par with positive gains 
in the democratic process that we have seen in other recent 
African elections.
    However, it is important to note that we do not know and it 
might not be possible to determine with any certainty whether 
the final order of candidates would have been different from 
the provisional results had the management of the process been 
better. Further assessments by election experts could determine 
whether the numerous shortcomings identified were due to 
incompetence, mismanagement, willful manipulation, or a 
combination of all three.
    President Kabila has publicly acknowledged that there were 
``mistakes'' in the process, but has reportedly rejected any 
assessment that the results were not creditable. An opposition 
candidate has formally filed a petition with the DRC Supreme 
Court which is presently reviewing the results and has until 
December 19 to issue its ruling.
    We continue to advocate that all Congolese political 
leaders and their supporters act responsibly, renounce 
violence, and resolve any disagreements through peaceful, 
constructive dialogue, and existing legal remedies. We believe 
that a rapid technical review of the electoral process by the 
Congolese authorities may determine ways to provide more 
creditable results, shed light on whether irregularities caused 
by lack of organization or fraud or whether they will provide 
guidance for future elections. The United States stands ready 
to provide technical assistance for such a review.
    It is important that the relevant Congolese authorities 
complete the remaining steps in the electoral process with 
maximum openness and transparency. We are urging them to put 
forward greater efforts for improved tabulation throughout the 
rest of the Congolese election cycle. This is especially 
important as the tabulation process is ongoing for 500 national 
assembly seats where, unlike the Presidential election, a small 
number of votes could determine the winner.
    We are also engaging with other governments at the highest 
levels, particularly in the region, asking them to reach out to 
President Kabila and Etienne Tshisekedi and other relevant 
actors to embrace a peaceful solution to this potential 
impasse. We have called on all Congolese political leaders to 
renounce violence and resolve any disagreements through 
peaceful dialogue and existing legal mechanisms.
    Although there are major challenges with these elections, I 
want to note a few accomplishments. Unlike in 2006, the 
Government of the DRC was principally responsible for the 
organization and for much of the financing of these elections. 
This was an important first step. The CENI was able to register 
over 32 million Congolese voters, and over 18 million voters 
endured admittedly difficult conditions to cast their votes. 
The voter turnout and enthusiasm for these elections broadly 
reflected the determination of the Congolese people to have 
their voices heard through the democratic process.
    The United States played an active role in assisting in the 
electoral process. We committed approximately $15 million from 
multiyear bilateral funding in election assistance through 
USAID. The funding supported the Carter Center's 4 million 
dollars' worth of projects, and we also supported the 
International Foundation for Electoral Systems, known as IFES, 
with an additional $11 million. This funding was used for civic 
and voter education, for national election observer training, 
and capacity-building of human rights organizations. In 
addition, we deployed mission observer teams in each of the 10 
provinces and Kinshasa, enabling wide coverage and observation 
of the elections.
    On the public diplomacy side, VOA and Embassy Kinshasa 
conducted a program to strengthen democratic and social 
institutions.
    Our involvement and observation of the elections was indeed 
extensive.
    Moving beyond the recent elections, I would like just to 
take a few minutes to state that the United States strongly 
supports the United Nations stabilization mission in the 
Democratic Republic of the Congo and its efforts to help the 
Congolese Government bring peace and stability to the DRC. 
Although MONUSCO cannot be in the Congo forever, any decision 
on the mission's drawdown or eventual withdrawal must be 
condition-based to avoid triggering a relapse into broader 
insecurity. We recognize that sustainable peace and stability 
in eastern Congo will require professional and accountable 
Congolese security forces and a strong and independent judicial 
system, and we are working with other nations to promote these.
    The United States also wants to help the Government of the 
Democratic Republic of the Congo to counter the threat of rebel 
armed groups and to help the DRC establish sustainable 
security, something that has eluded the country for decades. We 
continue 
to work closely with the people and Government of the DRC on 
countering the LRA and enhancing the protection of its civilian 
population.
    We are also concerned about the illicit trade in the DRC's 
natural resources. Unregulated exploitation and illicit trade 
in minerals have exacerbated the climate of insecurity in the 
eastern DRC as armed groups have used profits from such trade 
to fund their illegal activities. We currently have 
approximately $11 million in funds specifically aimed at 
increasing the transparency and regulation of the illegal trade 
in key minerals in the eastern DRC.
    The United States also has other major objectives in the 
Congo. We want to help to strengthen good governance, promote 
economic development, improve human rights, support judicial 
reform, and end the cycle of impunity. We recognize that there 
are great challenges across the DRC. However, the DRC and the 
United States have a solid and positive relationship, and our 
governments continue to engage at the highest level on a number 
of issues.
    Thank you very much.
    [The prepared statement of Ambassador Carson follows:]

        Prepared Statement of Assistant Secretary Johnnie Carson

    Good afternoon, Chairman Coons, Ranking Member Isakson, honorable 
members of the committee, thank you for the opportunity to testify 
before you on the United States policy toward the Democratic Republic 
of the Congo, the DRC.
    The DRC is the largest country in sub-Saharan Africa. With a 
population of over 71 million, it lies at the core of Central Africa 
and is bordered by nine other countries. It is also a country of 
enormous economic potential, with vast natural resources and large 
mineral deposits. This economic wealth has contributed to the DRC's 
turbulent history and the current complex political situation. This is 
the site of what has been dubbed Africa's World War--a series of 
conflicts that devastated the country for some 7 years and led to 
continued violence in the eastern provinces even after a peace 
agreement concluded in 2003. Rebuilding the DRC, establishing security, 
and helping its people to improve governance are some of our highest 
priorities on the continent. It is critical for us to stay engaged in 
the DRC, because the DRC's trajectory is pivotal to security and 
stability in the region.
    The United States is the DRC's largest donor, having committed over 
$900 million this past fiscal year bilaterally and through multilateral 
organizations for peacekeeping, humanitarian and development 
assistance. We have supported the DRC's efforts to emerge from conflict 
and realize a just and lasting peace that is based on democratic 
principles, the rule of law, and respect for human rights. The top 
priorities for the United States in the DRC are promoting credible 
elections, strengthening capacity to govern and protect, improving 
economic governance and reducing violence and conflict in the eastern 
DRC. My statement will focus on our immediate concern in the DRC--the 
stability of the country and the current election cycle.
                               elections
    On November 28, the DRC held its second democratic election since 
the end of the Mobutu era. Eleven candidates vied for the Presidency, 
and almost 19,000 candidates competed for 500 seats in Parliament. The 
Independent National Electoral Commission (known by its French 
acronym--CENI) announced the provisional election results on December 9 
declaring the incumbent, President Joseph Kabila, the winner with 
approximately 49 percent of the vote. Second place went to leading 
opposition candidate, Etienne Tshisekedi, with 32 percent of the vote. 
In a distant third place, per the CENI's provisional results, was Vital 
Kamerhe with 7.7 percent of the vote. Both national and international 
observer missions (including the U.S.-funded Carter Center observer 
mission) identified flaws with the vote tabulation process as well as 
other problems that occurred ahead of the actual vote. Mr. Tshisekedi 
responded to the announced results by calling them a ``provocation of 
the Congolese people'' and declaring himself President. He has also 
called on the international community to help address the problems in 
the electoral process.
    On December 10, the Carter Center released a public statement on 
its assessment that the CENI's provisional results ``lack 
credibility,'' noting that ``the vote tabulation process has varied 
across the country, ranging from the proper application of procedure to 
serious irregularities.'' The statement goes on to say, however, that 
``this assessment does not propose the final order of candidates is 
necessarily different than announced by the CENI, only that the results 
process is not credible.'' Other observer groups, including the EU, 
have since issued similar assessments.
    We share the deep concerns expressed in the assessments of the 
Carter Center and others over the execution of the election and the 
vote tallying process. It is clear that the elections were deficient in 
many ways. The CENI did not meet internationally accepted standards in 
the vote counting process. The U.S. Government along with some of our 
international partners has found the management and technical aspect of 
these elections to be seriously flawed, the vote tabulation to be 
lacking in transparency, and not on par with positive gains in the 
democratic process that we have seen in other recent African elections. 
However, it is important to note that we do not know--and it might not 
be possible to determine with any certainty whether the final order of 
candidates would have been different from the provisional results had 
the management of the process been better. Further assessments by 
elections experts could determine whether the numerous shortcomings 
identified were due to incompetence, mismanagement, willful 
manipulation, or a combination of all three.
    President Kabila has publicly acknowledged that there were 
``mistakes'' in the process but has reportedly rejected any assessment 
that the results were not credible. An opposition candidate has 
formally filed a petition with the DRC Supreme Court which is presently 
reviewing the results and has until December 19 to issue its ruling, 
which is just one day before the inauguration planned for December 20.
    We have been watching the electoral process for months. I have met 
and spoken with all of the major candidates numerous times. Last week, 
I spoke with Mr. Tshisekedi and CENI Chair Pastor Mulunda. We continue 
to advocate that all Congolese political leaders and their supporters 
act responsibly, renounce violence, and resolve any disagreements 
through peaceful constructive dialogue and existing legal remedies. We 
believe that a rapid technical review of the electoral process by the 
Congolese authorities may shed light on the cause of the 
irregularities, suggest ways in which governance could be structured to 
give better effect to the will of the Congolese people, and provide 
guidance for future elections. The United States stands ready to 
provide technical assistance for such a review and will encourage other 
countries to contribute as well.
    It is important that the relevant Congolese authorities complete 
the remaining steps in the electoral process with maximum openness and 
transparency. We are urging them to put forward greater efforts for an 
improved tabulation process throughout the rest of the Congolese 
election cycle. This is especially important as the tabulation process 
is ongoing for 500 National Assembly seats where, unlike with the 
Presidential election, a small number of votes could determine the 
winners.
    We are also engaging with other governments at the highest levels, 
particularly in the region, asking them to reach out to President 
Kabila and Etienne Tshisekedi and other relevant actors to embrace a 
peaceful solution to this potential impasse. We have called on all 
Congolese political leaders to renounce violence and resolve any 
disagreements through peaceful dialogue and existing legal mechanisms.
    Although there are major challenges with these elections, I want to 
emphasize that these elections demonstrated important and positive 
attributes of a democracy--the election was competitive, and the voters 
who turned out in large numbers were committed to selecting their 
government through peaceful, democratic means. Unlike in 2006, the 
Government of the DRC was principally responsible for the organization 
and, conduct for much of the financing of these elections. This was an 
important step forward. The CENI was able to register over 32 million 
Congolese voters, and over 18 million voters endured admittedly 
difficult conditions to cast their votes.
    The United States played an active role in assisting in the 
elections process. We committed approximately $15 million from 
multiyear bilateral and multilateral funding in election assistance 
through USAID. The funding supported The Carter Center ($4 million) and 
the International Foundation for Electoral Systems (IFES) ($11 million) 
projects on civic and voter education, national election observer 
training, and capacity-building of human rights organizations. In 
addition, we deployed mission observer teams in each of the 10 
provinces and Kinshasa enabling wide coverage and observance of the 
elections.
    On the Public Diplomacy side, VOA and Embassy Kinshasa conducted a 
program to strengthen democratic and social institutions. VOA spear-
headed a ``citizen journalist'' training of key opinionmakers 
(nonjournalists) in local communities to report on important domestic 
issues, including elections. By using inexpensive mobile phones, the 
citizen journalists posted texts, videos, photographs and audio 
directly to the ``100 Journalistes'' Facebook page.
                         continuing insecurity
    Both in the context of the elections, and more broadly across many 
of our key objectives, the United States strongly supports the United 
Nations Stabilization Mission in the Democratic Republic of the Congo 
(MONUSCO) and its efforts to help the Congolese Government bring peace 
and stability to the DRC. The mission is essential to the international 
community's efforts to promote the protection of civilians, which 
remains its number-one objective, as outlined in U.N. Security Council 
Resolution 1991 (2011). It has undertaken new initiatives in the last 
few years--including the deployment of Joint Protection Teams, 
Community Liaison Assistants, and Community Alert Networks--that have 
made it more responsive to the vast needs of the eastern provinces. We 
continue to believe MONUSCO must remain in the DRC until the government 
can effectively take over protecting civilians and legitimately take 
over the security function. Any decision on the mission's drawdown or 
eventual withdrawal must be conditions-based to avoid triggering a 
relapse into broader insecurity.
    At the same time, MONUSCO cannot be in the Congo forever. 
Sustainable peace and stability in eastern Congo will require 
professional and accountable Congolese security forces and a strong and 
independent judicial system. The Congolese Armed forces (FARDC) is 
faced with numerous challenges partly due to integrated former armed 
groups who continue to maintain parallel command structures. The FARDC 
remains a force that is continuously trying to integrate former rebels 
into a force structure that is itself oversized, unprofessional, and 
lacking training on almost all levels. The DRC Government has no real 
command and control over many of these forces, particularly the ex-CNDP 
forces that remain under the command of the ICC-indicted Jean Bosco 
Ntaganda, whose forces continue to commit human rights abuses and 
engage in illegal minerals trafficking and whose arrest we continue to 
call for. In many cases, the Government of the DRC is unable to 
properly provide its forces with the necessary logistical support. 
Helping the DRC develop professional forces that are able and 
disciplined enough to protect civilians is essential to ending sexual 
and gender-based violence and other serious human rights abuses.
    U.S. Government assistance attempts to address some of these 
underlying problems by providing military and police 
professionalization training with an emphasis on rule of law, respect 
for human rights and developing leadership skills that set a high moral 
bar for subordinates to emulate. For FY 2011, the State Department 
funded approximately $30 million in bilateral security assistance to 
support peace and security in the DRC. One critical component of this 
support is our training and assistance to the Congolese military 
justice sector. Effective and independent military judges and 
prosecutors helped prosecute and convict the officers accused of 
responsibility for the January 1 mass rapes in the town of Fizi. We 
continue to urge the DRC Government to take vigorous and effective 
actions in investigating and prosecuting security force officials 
accused of rape or other crimes.
    Helping the governments of the region, including the DRC 
Government, to counter the threat of rebel armed groups is another key 
element of our approach to help the DRC establish sustainable security. 
As this committee knows, countering the Lord's Resistance Army (LRA) 
continues to be a particular priority for us. The LRA's continued 
atrocities are an affront to human dignity and a threat to regional 
stability. In line with the legislation passed by Congress last year, 
we are pursuing a comprehensive, multiyear strategy to help our 
partners in the region to better mitigate and ultimately the threat 
posed by the LRA.
    As part of developing that strategy, we reviewed how we could 
improve our support to national militaries in the region to increase 
the likelihood of apprehending or eliminating the LRA's leaders. In 
October, President Obama reported to Congress that he had authorized a 
small number of U.S. forces to deploy to the LRA-affected region, in 
consultation with the region's national governments, to act as advisors 
to the militaries that are pursuing the LRA. Starting this month, 
advisor teams are beginning to deploy forward to certain LRA-affected 
areas, subject to the consent of the host governments. Let me also 
stress that although these advisors are equipped to defend themselves 
if the need arises, the U.S. forces in this operation are there to play 
only an advising role to the militaries pursuing the LRA.
    We continue to work closely with the people and government of the 
DRC on countering the LRA and enhancing the protection of civilians. 
With our encouragement, earlier this year, the Government of DRC 
deployed a U.S.-trained and -equipped battalion to participate in 
counter-LRA efforts in the LRA's areas of operations in the DRC. We 
continue to work with this battalion. We are also working to help 
MONUSCO augment its protection efforts in LRA-affected areas. At 
MONUSCO's request, the United States has embedded two U.S. military 
personnel into MONUSCO's Joint Intelligence and Operations Center in 
Dungu. These personnel are working with MONUSCO, FARDC, and UPDF 
representatives there to enhance information-sharing, analysis, and 
planning with regard to the LRA threat. Finally, we are also funding 
projects to expand existing early warning networks and to increase 
telecommunications in the LRA-affected areas of the DRC. In addition to 
the LRA, we are also working with the DRC Government to address other 
violent armed groups that continue to destabilize the country's eastern 
region.
                         illicit minerals trade
    We are also concerned about the illicit trade in the DRC's natural 
resources. Unregulated exploitation and illicit trade in minerals have 
exacerbated the climate of insecurity in the eastern DRC as armed 
groups have used profits from such trade to fund their activities. It 
has also denied the Congolese population opportunities for livelihoods 
in the mineral trade market. Consistent with the provisions of the 
Dodd-Frank Act, the Department has updated its strategy to break the 
links between the illicit minerals trade and abusive soldiers and armed 
groups. Using a variety of tools and programs, our strategy aims to 
help end the commercial role of DRC security forces in the minerals 
trade; enhance civilian regulation of the DRC minerals trade; protect 
mining communities; promote corporate due diligence; support regional 
and international efforts to develop credible due diligence mechanisms, 
particularly the certification scheme of the International Conference 
on the Great Lakes Region; and, contribute to establishing secure trade 
routes for legal mining.
    We currently have approximately $11 million in funds specifically 
aimed at increasing the transparency and regulation of the illegal 
trade in key minerals in the eastern DRC.
    These efforts, as well as the Public-Private Alliance (PPA) that we 
recently launched with our private and civil society partners, are 
aimed at supporting the creation of pilot conflict-free supply chains. 
These are intended to demonstrate that minerals can be ``cleanly'' 
sourced from the DRC and that the legitimate, conflict-free trade in 
minerals can continue even as companies begin to apply internationally 
agreed principles of due diligence. The PPA has already received 
commitment from more than 20 companies, trade associations, and NGOs 
prepared to contribute their funds or expertise to these efforts. More 
notably, the Secretariat of the International Conference on the Great 
Lakes Region (ICGLR), a group comprised of representatives of each of 
the Great Lakes countries, is a participant demonstrating that the 
initiative has regional buy-in to support the intended pilot supply 
chain efforts.
    We recognize that there are great challenges in the DRC. However, 
the DRC and the United States have a solid and positive relationship, 
and our governments continue to engage at the highest levels on all of 
these issues.

    Senator Coons. Thank you, Assistant Secretary Carson.
    Let me begin, if I might, what will be a 7-minute first 
round.
    Please, if you would, describe the technical assistance 
that the United States is prepared to offer the Congolese 
authorities to facilitate their conducting a transparent and 
thorough review of the election process. And what steps can be 
taken by CENI and by other Congolese institutions to improve 
the credibility of both the outcomes and the process and create 
stronger institutions both as the next steps of the tabulation 
of the national assembly elections are moving forward and in 
advance of future elections?
    Ambassador Carson. Mr. Chairman, thank you for that 
excellent question.
    First, let me say that we pushed very hard for CENI to 
release all of the numbers that are currently being reviewed, 
contested, and disputed. I spoke with the chairman of the CENI, 
Pastor Mulunda, and encouraged him not just to release the 
aggregate totals, but to release all of the numbers from the 
63,478 polling stations across the country, as well as the 169 
compilation centers. It was our nudging and pushing that 
resulted in all of these numbers coming out.
    We have said to the authorities, in response to your 
question, Mr. Chairman, that we are prepared to help come up 
with resources to fund a technical assessment of the elections. 
We are prepared to look for resources, in conjunction with 
others, to have groups such as IFES, the Carter Center, and 
other respectable and internationally acknowledged election 
organizations go into an in-depth audit of exactly what 
occurred. This would permit an examination of the logistical, 
the administrative, and the management processes that are part 
of the election, as well as any irregularities that would also 
be discovered in such an audit.
    We think that this is important to do in order to develop 
an understanding of what went wrong in the loss of ballots and 
votes by individuals, but most importantly, it would provide a 
foundation on which to improve the next set of elections for 
that country. We all know that this is not a one-only process. 
Our desire is to see better elections in the future. The only 
way that can happen is to be able to identify the reasons why 
this election did not live up to the expectations of the people 
of the Congo, as well as many in the international community 
who support democracy.
    So it would be an audit. We would not attempt to do it with 
our own individual resources, but would go out and contract 
groups that are election experts to do this to provide a 
foundation to find out what went wrong and to provide a basis 
and a roadmap for improvements as we move ahead.
    Senator Coons. Let me ask a next question, if I might, 
about post-election violence. Given how quickly developments 
may unfold in the DRC, both the Supreme Court ruling and the 
scheduled inauguration, how quickly can the international 
community, the U.N., the AU, SADC, other partners of ours, get 
engaged with the United States, get engaged with the Congolese 
Government and conduct this audit? And what impact might this 
have on post-election violence, and what do you think the 
international community and the United States can and should do 
to minimize the risks of widespread violence?
    Ambassador Carson. Mr. Chairman, we have been sending a 
very loud and clear signal to all of the candidates to not 
engage in violence. We have said repeatedly that violence has 
no part in the electoral process or in democracy. We have 
encouraged them to resolve any differences that they have had 
or might have with the process through legal means.
    We have reached out to a number of key leaders around the 
region to ask them to reinforce this message as well. I myself 
spoke this past weekend to the chairman of the African Union 
and encouraged him to convey the same message to officials 
there.
    I think that with respect to the issue of violence, all 
violence is unacceptable and should not be tolerated, but the 
reality thus far, Mr. Chairman, is that there is significantly 
less violence following this election so far than there was 
after the second round of the 2006 election in which President 
Kabila beat his closest rival, Mr. Bemba. Following the 
elections in 2006, there were armed battles in the streets of 
Kinshasa and in a number of other major towns between rival 
armies of the two contending candidates. That had to be 
eventually put down over several weeks by the Congolese 
military, supported by the U.N. I am not saying that the 
prospect for violence does not exist going forward, but thus 
far, we have not seen anywhere near the level of violence that 
we saw in 2006.
    We continue to encourage all candidates to act responsibly. 
We have encouraged neighboring state leaders to enforce that 
message as well, and we will continue to do so.
    Senator Coons. Thank you, Ambassador.
    Senator Isakson.
    Senator Isakson. Secretary Carson, when the chairman and I 
were in Nigeria, we had an interesting, if I remember 
correctly, 2\1/2\-hour meeting with Mr. Yaeger who is the head 
of the election commission that was put together in Nigeria to 
conduct the election that was so successful. And one of the 
things that they used, which was impressive to both of us, is 
cell technology to communicate from the polling place to 
Lagos--Abuja what the count was at the polling place, so if it 
got to Abuja and it was different, they had some idea there was 
some fooling around. And evidently it was the key cog in having 
transparency and accountability in the vote process.
    I know we have talked about--you used the term ``improved 
tabulation process.'' That was an improved tabulation process 
in Nigeria. Could we recommend or ask the Nigerian Government 
if they would invite Mr. Yaeger in to consult with them on 
reforms like that that could help to have more transparent and 
fair elections?
    Ambassador Carson. Senator Isakson, the answer is ``Yes,'' 
and I hope that as we go out and try to put together an effort 
to have a technical assessment made, that those who might win 
the contract to do this would, in fact, invite in people like 
the Nigerian election commissioner. I think he did an 
extraordinarily good job also in very difficult circumstances.
    You are absolutely right about the importance of cell phone 
communication there where people were able to send their 
results in telephonically so that there was a way to double and 
triple track the numbers that were being received at the 
central compilation centers.
    But something else was also there that was missing from the 
DRC process which I think is useful in many elections across 
Africa, and that is a parallel vote count in which there is a 
system put in place to have a very good, legitimate counting 
and tabulation that runs parallel to that of the government's 
or the electoral commission. So that is an important thing.
    One of the other things I might add too is that there were 
enormous logistical and technical complications with this 
election, but this election also took place in the worst time 
of the year for the DRC, right in the middle of their rainy 
season, and that also helped to add complications on top of 
very serious additional shortcomings, which have already been 
mentioned.
    Senator Isakson. In your testimony, you talked about a lack 
of functioning authority in a good area of the DRC. And as I 
understand it, there are places in the DRC that are really 
under good control and have good functioning authority, but 
there are some pockets that are pretty lawless, ungoverned, and 
hard to reach.
    In the election tabulations, was there any correlation 
between the problems with the election as to those that did not 
have functioning authority and those that did?
    Ambassador Carson. I have not been able to make that kind 
of assessment myself, but I do know that it was, in fact, very 
difficult to carry out the elections in the south Kivu area, 
which is an area where armed groups continue to operate quite 
widely. But I know that the problems that were experienced in 
this election were widespread. They occurred in Kinshasa. They 
occurred in Katanga. They occurred in Equator. So I am not able 
to say whether they were better or worse in places where 
government authority was or was not effective.
    Senator Isakson. Were any of the 100 advisors that the 
President sent to Uganda positioned also in the DRC?
    Ambassador Carson. At this point, there are only several 
there in the DRC, and they are located up in the far 
northeastern part of the country.
    Senator Isakson. And that is part of the effort to go after 
the Lords Resistance Army?
    Ambassador Carson. It is, indeed. As we have indicated, the 
President authorized a mission of approximately 100 military 
advisors who will help provide information and better training 
for the forces in the region to effectively track down the 
remnants of Kony's organization and Kony himself. We hope that 
over time that these advisors will be located in Uganda, in 
parts of the northeastern corner of the DRC, as well as the 
CAR, and in South Sudan.
    Senator Isakson. Based on my mail and based on being a 
member of the Vietnam generation, there is a lot of concern 
about loaning those advisors because it is kind of an unknown 
mission in the public. And so I would encourage you and 
Secretary Clinton, in whatever way is appropriate given 
security, national security, and also the security of those 
personnel, to have a periodic reporting back to us over the 
progress of what they are doing in their stated mission and 
also what their rules of engagement are because, quite frankly, 
most of us between 65 and 70 remember what happened in the 
1960s with a handful of advisors that actually President 
Eisenhower sent in to Southeast Asia that later became a major 
deployment. I am not suggesting that is either the intent or 
possible, but I think the transparency that people look for in 
elections I think they are also going to be looking for in 
terms of this assignment of personnel. And I would appreciate 
it, to the extent you can and it meets our national security 
and the interest of those advisors, that we be periodically 
advised of their progress, the rules of engagement they operate 
under, and their mission.
    Ambassador Carson. Yes, sir. I actually agree and I think 
there is probably no reason, Senator Isakson, that we cannot in 
fact do this. And I will make sure, when I go back to the 
building, that we have no problems with doing so, but I have no 
problem with giving you a periodic update. If I do not do it, I 
will make sure that my colleagues over in the Department of 
Defense are aware of this request and transmit it for them to 
make sure that it happens. But I think that is certainly a 
suggestion that we can follow through on.
    Senator Isakson. Thank you. My suggestion is not just for 
myself and Senator Coons, but we could be the conduit to ensure 
that the Senate understands that issue because if it were to 
bubble up, a lack of knowledge can be a real threat to the 
mission. I have not talked to the chairman about this, but I 
would be happy to be a part of a conduit to periodically give 
that report to the Members of the Senate.
    Ambassador Carson. Absolutely.
    Senator Coons. I would like to follow up, if I might, on 
that same line of questioning. During the runup to the 
elections, the idea of having Ugandan troops on DRC soil 
pursuing the LRA was increasingly controversial. Now that the 
elections have passed, is there any confidence in your part 
that there will be improved collaboration between the DRC, 
Uganda, and other regional players in pursuing Kony and the 
LRA? And what do you see as the scale of the ongoing--the scope 
and the nature of the ongoing threat that the LRA poses to 
civilians in the DRC and the region?
    Ambassador Carson. The LRA continues to pose a serious 
threat to civilians in a wide area, extending from the 
northeastern part of the Congo into the Central African 
Republic and all the way to the South Sudan border. They 
continue to kidnap young men for conscription into their ranks 
and women to be sex slaves and porters. We believe that the 
total strength of the LRA probably does not exceed any more 
than approximately 250 individuals, but these 250 individuals 
are known to be killers and to be extraordinarily ruthless. 
They are dispersed in a number of groups fanning out over a 
very, very large and heavily treed and forested area. So they 
do continue to be a threat in the area, and we think that it is 
important to continue to help the countries in the region go 
after them.
    The DRC Government did ask for a reduction in the number of 
Ugandans on their soil in the runup to the elections. We hope 
that following the conclusion of these elections that we will 
see a return to the stepped-up cooperation that has led to the 
degrading of the LRA over the last year/year and a half.
    I note that the DRC has committed one battalion, the 391st 
Battalion, to operations in the northeast in the Gorompa 
forest. It is a battalion of soldiers trained by DOD and 
AFRICOM. They remain very much engaged in the search and the 
fight against the LRA. They are using information that is 
shared among Uganda, the DRC, and the United States. And that 
information-sharing between the countries has not ceased, and 
we know that those who are sharing this information from both 
armies in the DRC and Uganda work together across the border.
    Senator Coons. What is the likely role of the new special 
advisor?
    First, let me commend the administration for appointing 
Ambassador Walkley as the Special Advisor for DRC and Great 
Lakes Region.
    Help us understand, if you would, how he is going to focus 
and elevate U.S. policy in the region around LRA, around 
conflict minerals, around improving governance, and resolving 
ongoing disputes in the region. What will his role be?
    Ambassador Carson. Well, first of all, we are extremely 
pleased with the presence and selection of Ambassador Walkley. 
He is an enormously experienced diplomat, having served a great 
deal in Francophone Africa, as Ambassador to Gabon, Ambassador 
to Guinea Conakry, and about a decade ago/decade and a half 
ago, was deputy chief of mission in Kinshasa. He was most 
recently our consul general and charge d'affaires in Juba. He 
is a highly skilled diplomat.
    We hope that Ambassador Walkley's appointment will signal 
to all who are concerned about the DRC that the United States 
remains serious and deeply interested in the issues of the 
Great Lakes region and the DRC in particular. We hope that 
Ambassador Walkley will be able to effectively strengthen 
coordination of our policy in Washington within the interagency 
and within the State Department among the various offices that 
are responsible and have an interest in Great Lakes issues.
    We also hope that he will be able to work with the 
governments in the region to promote greater security 
collaboration and information-sharing, help them work together 
on strengthening common economic ties that are important across 
the border, help them to address the issues of conflict 
minerals and the movement of conflict minerals illegally across 
one border into another state for export.
    And we hope that he will be our conduit and liaison with 
the international community and those in the international 
community who are also concerned about issues in the Great 
Lakes.
    So we see essentially a three-part role for him in his 
obligations for us.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. I do not really have another question. I 
just want to thank Secretary Carson for his active engagement 
in the entire continent and for his keeping Senator Coons and I 
so well informed. I think the successes of the last year have 
been quite remarkable if you look at the Comprehensive Peace 
Agreement in the Sudan and the potential for what is happening 
there, the positive potential there, and some of the other 
things that have happened in large measure have been because of 
your diplomacy and your engagement. And I personally 
acknowledge that and appreciate it very much.
    Ambassador Carson. Senator, thank you very much. And thank 
you for your support as well and the chairman's support in 
addition. I think that both of you have been strong supporters 
of strengthening our engagement with Africa and developing a 
positive and strong relationship with the continent.
    Senator Coons. Let me, if I might, just ask one or two more 
questions. I had understood Senator Durbin was making his best 
efforts to join us and now may have been unavoidably detained. 
So I am going to leave the record at the end of this hearing 
open for longer than usual. I believe he may have some 
questions about conflict minerals or the LRA or other topics 
that would be of interest.
    I also wanted to just add a question about leaders like 
President Kabila who have made constitutional changes right 
before elections and the implications of such actions in the 
democratic process. I have heard from a number of constituents 
real concern about Cameroon and President Biya who modified the 
Cameroonian Constitution to run for a sixth term and is now 
beginning his fourth decade in office after their recent 
elections.
    What more can the United States and the international 
community do to ensure in Cameroon that the political 
opposition is not silenced and to discourage other leaders in 
the region, including, for example, as we spoke about the other 
day, President Wade in Senegal, from forcing similar 
constitutional challenges or extending their terms of office 
beyond what might be positive and reasonable in the interest of 
their people and the democratic process?
    Ambassador Carson. Mr. Chairman, a very good question.
    The decision by the President and the Government of 
Cameroon to end term limitations was deeply, deeply 
unfortunate. I think that the elimination of terms helps to 
fuel some of the difficulties that arise when leaders have an 
opportunity to extend themselves in office indefinitely.
    We are clearly opposed to the extension or we are clearly 
opposed to the reduction and elimination of term limits. We 
have voiced our concern about this issue to President Paul 
Biya. I hope that he and others in his government will see the 
value of reinstating term limits. I think that it helps to 
create an opportunity for political mobility by the most senior 
political officials in any country. But the elimination of term 
limits in the Cameroon, as around other parts of Africa, is 
regrettable.
    Senator Coons. My last question. The Democratic Republic of 
the Congo is at the bottom in terms of the human index. The 
international community has contributed $2 billion. We are, as 
you mentioned, the single largest donor.
    Given the outcome of these elections so far, given the very 
real challenges facing the DRC going forward, what aspects of 
our assistance and of international engagement do you think 
have the best prospects for improving human conditions, 
improving governance, making the DRC a more just and positive 
place for its residents in the years ahead? What can we be 
doing to improve governance that will have a lasting impact?
    Ambassador Carson. Well, we are working to improve the 
judicial system. We are working with civil society 
organizations. We are working with the legislature. We have to 
continue to do all of these things. We are working with civil 
society to fight corruption. We are working to improve the 
capacity of the judicial system as well. These are things that 
do take an enormous amount of time.
    But I would like to say that a lot of our resources going 
into the Democratic Republic of the Congo are there to address 
human needs, sexual and gender-based violence, ending the cycle 
of impunity that has led to enormous human rights violations 
against women and others across the country, improving health 
care as well. So it is across a wide area that we are working.
    Senator Coons. Well, thank you. I would like to offer our 
sincere appreciation, Ambassador Carson, for your leadership, 
and we would like to now move to our second panel today, if we 
could. Thank you so much for your testimony, Assistant 
Secretary Carson.
    Ambassador Carson. Thank you.
    Senator Coons. We would like to welcome our second panel, 
and we are going to begin, if we might, with Mr. Mark 
Schneider, proceed to Mr. Anthony Gambino, and then conclude 
with Mr. Mvemba Dizolele. We are grateful for your willingness 
to join us today and to testify.
    In the interest of time, I have dispensed with a recitation 
of the biographies of each of our witnesses today. They are 
accessible through the committee Web site and online. But all 
three of you bring a great range and depth of experience in the 
challenges facing the DRC, and we are grateful for your making 
yourselves available to the committee today.
    Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you very much, Mr. Chairman, Senator 
Isakson, to you both for holding this hearing at a watershed 
moment in the history of the Congo.
    As you know, Crisis Group is an independent, nonpartisan, 
nongovernmental organization, and our mission is to seek to 
prevent and to help resolve deadly conflict.
    I do not think there is any question that this second 
election, since the end of a brutal civil war which produced 
some 5 million victims, had seemed to be a moment for the Congo 
to move forward on a democratic journey. Instead, we meet at a 
time of desperation, enormous frustration, and a great degree 
of fear.
    There are estimates now that a total of several million 
voters who courageously went to vote, cast their ballots and 
then those votes were not counted or the results were never 
even transmitted to the central tabulation centers. And in some 
cases, it now appears that some of the original tally sheets 
and the ballots may not have been preserved. So the issue of 
auditing is going to be very difficult.
    I should add that the reports that we have received, which 
echo the findings of the Carter Center, the European Union, and 
the more than 30,000 Congolese that the Catholic Church 
deployed as observers is, as the Carter Center stated, that 
these preliminary results issued by the CENI lacked 
credibility.
    And let me just emphasize at the outset and I will then go 
into some detail. While I also have the highest regard for 
Assistant Secretary Carson, we do not believe this is a 
technical issue. This is a political issue. There are technical 
problems, but it is a fundamental political issue.
    [Applause.]
    Senator Coons. Mr. Schneider, let me be clear. We are not 
going to allow demonstrations, comments, or conversations 
during this hearing. I will have people removed. Please allow 
us to conduct the hearing in some peace and order. Thank you.
    Mr. Schneider.
    Mr. Schneider. You made the point about the question about 
the implications of the absence of functioning authority in 
different places in the country, and I think it is important to 
recognize that the initial reports that we have indicate, as 
Assistant Secretary Carson mentioned, that among the worst 
situations were in Kinshasa where the Carter Center found some 
2,000 polling stations in Kinshasa where the results simply 
were not counted in the final tally sheets and another thousand 
around the country. They estimate 850,000 votes were affected.
    The EU, in its detailed report that came out yesterday, now 
estimates 1.6 million votes that were not counted.
    And I think the fundamental issue here is about the 
disenfranchisement of Congolese voters. This was their right. 
This is a right that clearly seems to have been denied to a 
substantial degree.
    I should also add that we have now heard--and there is a 
report again in the EU report--that there were some polling 
stations where there were more votes tabulated than voters 
registered where close to 100 percent of the votes from those 
stations reported by CENI were for President Joseph Kabila. 
Yet, in some of those very instances, observers were able to be 
there through the end of the tallying and in fact they found 
very different results. In some cases, the results were more 
balanced; in other cases, the second place finisher, Etienne 
Tshisekedi, actually came in first.
    In a sense, these results show that our worst nightmare in 
the preelectoral period has come to pass; that is, the results 
are so marred by widespread charges of fraud and dishonesty 
that the credibility of the entire election may be fatally 
impaired and so too the legitimacy of the government that 
follows.
    But our major concern right now is that we are deeply 
disturbed by the loss of life that has already occurred and, 
unfortunately, the potential for ever-widening regional 
domestic conflict and upheaval. And that is where we argue that 
this has to be the central focus right now. We believe there is 
an overriding responsibility of the international community 
from the MONUSCO peacekeeping mission, the United States, and 
others, particularly the African leadership and the African 
Union, to join with the Catholic Church and others to find a 
path away from a return to national violence in the Congo. That 
is really where we see the gravest danger.
    And I should add that while the international community now 
has indicated that it believes these results were fatally 
flawed, there must be a mechanism proposed, beyond the question 
of technical experts, in order to participate in the 
verification of these initial results and to provide some 
degree of mediation in the Congo. And we believe that that is 
crucial. The African Union, the United Nations, the European 
Union, and the United States should immediately be focused on 
what is the mechanism that can help lead the Congo in a 
different direction.
    And I should add that ultimately the goal should be to 
permit that those voters who were not able to vote or whose 
votes were not counted to revote in those areas in order to 
ensure that their right is recognized. And that ultimately is 
the only way that you will ever really know who won this 
election. Essentially, what 
we are asking is that this be done at a time when the country 
is poised on whether or not there is going to be additional 
conflict or whether it is going to move forward in a democratic 
fashion.
    And remember that we have not yet had even the preliminary 
results with respect to legislative voting. Again, that 
verification will need some participation of an independent 
international body, along with the Congolese, because of the 
immense amount of suspicion that has occurred.
    Just let me give you four examples and the preliminary 
issues. One, the constitutional amendment that changed the 
playing field. Two was that the voter registration rolls were 
challenged. The political parties, the opposition parties, 
never had a chance to audit them. Three was the nature of the 
membership of the CENI with a clear bias toward the current 
government. And fourth was the naming in early November of a 
Supreme Court which is ultimately going to preside over the 
dispute resolution, again with a heavy partisan cast to it. 
These are essential questions.
    And I will stop by simply noting that there are two other 
issues that have been raised, and I think they are crucial in 
terms of the future of the Congo. One is security sector reform 
and reform particularly within the army, and the second is the 
noncorrupt management of the country's natural resources.
    And I should add that we agree with Assistant Secretary 
Carson on the need for the action that was taken with respect 
to the LRA, but there is far more that needs to be done with 
respect to the nature of the integration of militias into the 
armed forces of the Congo that must be changed if you are going 
to have an end to the kind of violations that we have seen in 
the past.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

                  Prepared Statement of Mark Schneider

    The International Crisis Group appreciates the opportunity to 
testify today and I would like to thank Chairman Coons, Ranking Member 
Isakson, and the members of this subcommittee for holding this 
important hearing during a precarious moment for the people of the DRC.
    Crisis Group is an independent, nonpartisan, nongovernmental 
organization that provides field-based analysis, policy advice and 
advocacy to governments, the United Nations, and other multilateral 
organizations on the prevention and resolution of deadly conflict. 
Crisis Group was founded in 1995 as an international nongovernmental 
organisation by distinguished diplomats, statesmen, and opinion leaders 
including Career Ambassador Mort Abramowitz; Nobel Prize winner and 
former Finland President; Martti Ahtisaari, the late Congressman, 
Stephen Solarz; and former U.N. and British diplomat, Mark Malloch 
Brown, who were deeply concerned at the international community's 
failure to anticipate and respond effectively to mass atrocities in 
Rwanda and Bosnia. Senator George Mitchell was our first chairman; 
Ambassador Thomas Pickering is our current chairman. Louise Arbour, 
former chief prosecutor at the International Criminal Tribunal for 
Rwanda and at the International Criminal Tribunal for the former 
Yugoslavia and former U.N. High Commissioner for Human Rights is our 
current president. In 2011, Crisis Group was awarded the Eisenhower 
Medal for Leadership and Service.
    Crisis Group publishes annually around 80 reports and briefing 
papers, as well as the monthly CrisisWatch bulletin. Our staff are 
located on the ground in 10 regional offices and 16 other locations 
covering between them over 60 countries focused on conflict prevention 
and post-conflict stabilization. We maintain advocacy and research 
offices in Brussels (the global headquarters), Washington and New York 
and liaison and research presences in London, Moscow, and Beijing.
    Crisis Group's Africa program oversees four projects covering 
Central, Southern, and West Africa, and the Horn of Africa, reporting 
on 21 different countries within these regions. We have produced 34 
reports/briefings on the DRC and circulated an urgent statement on 8 
December.
                            current context
    Crisis Group's DRC reporting, in particular over the last 18 
months, raised alarm bells regarding the coming elections and their 
implications for future governance in a country which was barely 8 
years removed from a state of anarchy resulting from a civil conflict 
and the military interventions of neighbors directly and through 
militia proxies. Our recent reports questioned the consequences of a 
hasty constitutional change in January 2011, flawed voter registration 
and voter roll issues, minimal outreach by Congo's Independent National 
Election Commission (CENI) to the political parties, the lack of 
transparency, a sharp increase of political tension, incidents of 
violence, the general inadequate preparation of the elections, and the 
late design of an integrated electoral security plan. And we especially 
pressed unsuccessfully, given all of these suspect issues, on the CENI, 
the government, opposition parties, MONUSCO and the larger 
international community, including the United States and the European 
Union, to insist on development of a consensual Plan B if, despite all 
good faith efforts, the outlook for decent elections appeared grim well 
before 28 November. Otherwise, we warned that without concerted and 
unified action by the DRC and committed international diplomacy, the 
November general elections, the second since the end to the Congo 
conflict, would result in irregularities if not massive fraud with the 
potential for widespread violence and the undermining of the legitimacy 
of any pronounced elections winner.
    We recognize the international and U.S. diplomatic engagement 
leading up to the 28 November elections and welcome the new appointment 
of Ambassador Barrie Walkley as Special Advisor for the Great Lakes and 
the Democratic Republic of Congo to coordinate and respond to the 
myriad challenges for the region over the coming weeks and months. 
Unfortunately that engagement was not enough. The Democratic Republic 
of Congo faces a political crisis that already has resulted in loss of 
life. Every diplomatic measure needs to be exerted to avoid a return to 
national violence. The 9 December provisional results were announced by 
the electoral commission, with Kabila declared by the CENI to have won 
the Presidential election (49 percent of the votes) by 17 percentage 
points. The longtime opposition leader Tshisekedi came in second place 
with 32 percent and Kamerhe came in third with 7.7 percent. Both 
opposition candidates have rejected the results. Scheduled on 28 
November, it was extended for 2 days as materials arrived late and many 
names were missing from voter lists. Estimated voter turnout was 
reported at 58 percent which reflects the courageous commitment of 
millions of Congolese voters to democracy. However, they along with the 
international community are living through their worst nightmare, an 
electoral result marred by such widespread charges of fraud, deceit, 
and dishonesty that the credibility of the process may be fatally 
impaired and so too the legitimacy of the government that follows.
    Tallying of the legislative elections results is not going to be 
concluded for many weeks and the preservation of those ballots to avoid 
further ``losses'' and the transparent verification of that vote 
tabulation is essential.
    The Carter Center, which maintained 26 teams of international, 
impartial observers deployed in Kinshasa and the 10 provinces for the 
counting and tabulation, issued this statement: ``Carter Center 
observers reported that the quality and integrity of the vote 
tabulation process has varied across the country, ranging from the 
proper application of procedures to serious irregularities, including 
the loss of nearly 2,000 polling station results in Kinshasa. Based on 
the detailed results released by CENI, it is also evident that multiple 
locations, notably several Katanga province constituencies, reported 
impossibly high rates of 99 to 100 percent voter turnout with all, or 
nearly all, votes going to incumbent President Joseph Kabila. These and 
other observations point to mismanagement of the results process and 
compromise the integrity of the Presidential election. Candidates and 
parties have a limited time to submit any complaints to the Supreme 
Court, and tabulation for the legislative elections is ongoing. The 
problems observed in the tabulation and announced results are 
compounded by inadequate access for observers at multiple compilation 
centers around the country and no official access to the national 
results center in Kinshasa. The Carter Center is therefore unable to 
provide independent verification of the accuracy of the overall results 
or the degree to which they reflect the will of the Congolese people.''
    The responses from other key organizations:

  <bullet> ``After analyzing the results that were made public by the 
        (election commission) this past Friday, December 9, 2011, we 
        could not help but conclude that the results are not founded on 
        truth or justice,'' said Cardinal Laurent Monsengwo, the head 
        of the influential Catholic Church in Congo. The Catholic 
        Church deployed 30,000 observers, more than any other group, 
        nationwide.
  <bullet> In a 12 December MONUSCO press release: ``MONUSCO notes with 
        deep concern the findings of these observer missions relating 
        to the significant irregularities in the management of the 
        results process, in particular the counting and tabulation of 
        the votes.'' It went on to recommend, as we have that CENI 
        ``undertake a timely and rigorous review of the issues 
        identified by observer missions with the full participation of 
        witnesses and observers, including foreign observer groups . . 
        .''
  <bullet> In the EU Electoral Monitoring Mission (EUOM) preliminary 
        statement: ``a strong mobilization of the electorate in a 
        process inadequately controlled'' and noted that ``poor 
        communication between INEC and the actors of the process has 
        had a negative impact on transparency and trust.''

    The lack of credibility of the preliminary results already has 
sparked opposition protests that, in turn, prompted heavy-handed 
repression by Congolese security forces in Kinshasa and could lead to 
wider disorder. To avert further violence, Congolese authorities must 
make possible the in-depth verification of the counting process. The 
United Nations, African Union, and European Union must work together to 
impress on Congolese leaders the need for immediate action to allow 
transparent, independent verification of the initial results and full 
participation of international observers as an essential first step to 
find a way out of the crisis.
    The vote marked the culmination of a troubled year of preparations, 
with the playing field increasingly skewed toward incumbent President 
Joseph Kabila. Constitutional changes dropped the requirement for a 
runoff, which, with opposition leaders failing to unite behind a 
candidate, effectively split their vote. Kabila loyalists were 
appointed to the election commission at the beginning of the year and 
to the Supreme Court on 9 November, which settles electoral disputes. 
Despite discrepancies in registration figures, opposition parties and 
observers were unable to audit voter rolls. The state-run media drummed 
up support for the President. Nonetheless, considerably less popular 
than when he won the 2006 polls, Kabila faced stiff competition, 
especially from veteran opposition leader Tshisekedi. With another 
candidate, Vital Kamerhe, threatening to sap Kabila's votes in the 
Kivus--vital to his win 5 years ago--the President's reelection was far 
from secure.
    As requested by the international community, the electoral 
commission published results by polling station, which in theory would 
permit their verification by opposition parties and observers. However, 
the Carter Center noted that the tabulation process lacks transparency, 
the votes of the results of 2,000 voting stations in Kinshasa and 1,000 
voting stations in the rest of the country were lost or at least never 
made it to the final compilation, indicate that at least 850,000 voters 
who reached the polls and voted were effectively disenfranchised. This 
is all the more disconcerting as the criteria for disqualifying ballots 
are unclear, with Kinshasa--an opposition stronghold--
disproportionately affected and Katanga--a Presidential stronghold--
overestimated. Results returned from Katanga--a Presidential 
stronghold--show, on the other hand, an extraordinarily high turnout, 
as noted by the Carter Center, suggesting skewed representation. 
Moreover, electoral material is now at risk of being lost because of 
poor storage conditions.
    Election day flaws were bad enough; but perceptions that results 
are fiddled behind closed doors remain. Congo's electoral woes reflect 
the country's broader lack of democratic and institutional development 
since 2006. But they also stem from weak international and continental 
engagement, from MONUSCO and the AU to donors--especially the EU and 
the U.K., who partly funded the polls, and the U.S. All have been 
largely ineffective in preventing Kabila's consolidation of power and 
stacking the decks.
    A sense of foreboding now hangs over Kinshasa. The fierce crackdown 
by the security forces against opposition protesters on the eve of 
election, according to Human Rights Watch, which left 18 dead and more 
than 100 injured, has been followed by violence on the day of elections 
and repression the days after. Thousands of Congolese reportedly 
crossed into neighbouring Congo-Brazzaville, fearing violence. Rumours 
of machetes distributed, gangs mobilizing and a heavy security presence 
risk spreading panic in the capital where all activities are suspended 
since Thursday evening. The International Criminal Court (ICC) 
prosecutor, meanwhile, has stated that the DRC situation was under 
watch.
    Given the electoral commission's partisanship and the widespread 
irregularities, the preliminary results cannot inspire much confidence. 
Opposition politicians have already rejected them out of hand and Vital 
Kamerhe lodged a complaint to the Supreme Court. The Supreme Court 
should resolve disputes, but with that body also dominated with Kabila 
loyalists, some additional support may be needed to avoid losers taking 
their grievances to the streets. To this point, the opposition leaders 
have shown some restraint in that respect.
    While the focus is on Presidential election, legislative elections 
are forgotten. In the absence of international observers to ensure 
results counting and compilation are transparent, frauds and 
irregularities are to be expected. The Carter Center and the EU mission 
either have left or are planning to soon leave the country and the 
legislative results will not be under watch. Already governmental 
security forces are threatening opposition MP candidates from Kasai 
Occidental, Bas-Congo, North Kivu, and the U.N. is providing them with 
temporary protection.
                              next steps?
    The key problem now is how to get a peaceful outcome out of a 
messy, polarized, and fraudulent electoral process. The management of 
the electoral process has been extremely difficult and the management 
of the coming weeks will be much more difficult. The preliminary 
electoral results have already been rejected by Etienne Tshisekedi and 
Vital Kamerhe and most of the Congolese voters have a firsthand 
experience of the bad performance of the electoral commission (general 
lack of confidence in the electoral commission, the 2011 elections are 
a step back compared to 2006 elections). In addition, President Kabila 
has been reelected with what appears to be a much lower turnout this 
year (70 percent turnout in 2006 at the first round and 58 percent this 
year). The key issue is to avoid more post-electoral violence and to 
design a government that will provide stability for the next 5 years. 
The publishing on CENI's Web site of the detailed results by polling 
station, as called for by the United States and others, now requires 
in-depth verification and the monitoring of the dispute resolution. If 
not, the electoral process cannot be regarded as credible.
Election Recommendations
  <bullet> The published results polling station by polling station 
        must now be verified by the political parties and independent 
        observers from civil society and international organizations in 
        order to ensure the transparency of the tabulation process.
  <bullet> Electoral authorities must explain clearly how political 
        parties and observers can contest the results of any polling 
        station and provide free access to the relevant information and 
        explanations about the lost results of several thousands of 
        voting stations. Those stations that returned suspicious 
        results or where observers report irregularities should be 
        subject to rigorous investigation--again in the presence of 
        observers--with clear criteria applied when disqualifying 
        ballots. Voters in areas where polling did not take place or 
        where the results have been lost should be given the 
        opportunity to vote.
  <bullet> The rules of the Supreme Court must be revised, notably the 
        proceedings must not be in camera.
  <bullet> The tabulation process for the legislative results must 
        urgently be corrected on the basis of the errors and problems 
        encountered during the tabulation process of the Presidential 
        results and the electoral material secured. Given the poor work 
        done by the electoral commission and the failure to secure 
        voting results from more than 3,000 polling stations covering 
        some 850,000 votes demonstrates the absolute requirement for 
        independent monitoring of the tabulation process for the 
        parliamentary election.
  <bullet> All Congolese leaders must avoid inflammatory language. 
        Given that protests will almost certainly turn violent, 
        opposition politicians should appeal to their supporters to 
        stay off the streets.
  <bullet> If protests do occur, security forces must refrain from 
        heavy handed responses--with clear instructions along those 
        lines given by military and police commanders and by the 
        President. Violence that happened since the end of the 
        electoral campaign should be subject to investigation by 
        Congolese and international human rights groups, as well as the 
        ICC, if appropriate.
  <bullet> The U.N., AU and EU should urgently dispatch a high-level 
        team, perhaps comprised of distinguished African leaders, to 
        mediate between factions. Mediators should explore options as 
        part of the verification process for alternative dispute 
        resolution, modifications of the Supreme Court's rules or 
        independent oversight of existing mechanisms--possibly under AU 
        auspices and with international support--given distrust in the 
        responsible Congolese institutions. The mediators should also 
        engage the factions on the long-term stability of the country 
        and the necessity of an inclusive government.
  <bullet> In the meantime, the U.N., donors and regional leaders must 
        make clear that any interethnic violence between Kasaians and 
        Katangans will be condemned as such as harassment of opposition 
        candidates. They must avoid statements that could legitimise a 
        badly flawed vote and destroy what is left of their credibility 
        in the Congo. They cannot paper over electoral flaws. No leader 
        should be congratulated until all disputes are resolved.
  <bullet> The U.N. should deploy additional peacekeepers to the 
        Western provinces and Kinshasa and should increase its 
        surveillance in Katanga where anti-Kasaian feeling is presently 
        on the rise. The return of ethnic violence in Katanga or/and a 
        bloodbath in the capital of a country hosting the world's 
        largest U.N. peace operation are unthinkable.

    In addition to resolving the current electoral crisis, there are 
other serious questions affecting DRC's future stability.
    We believe that two critical challenges to development, governance, 
and civilian protection in the Congo are army reform and more competent 
and noncorrupt management of the country's natural resources--both of 
which are conspicuous failures at the moment. The result has been 
participation by an array of militias as well as FARDC units in rape 
and marauding in the Eastern Congo and an unending competition over 
conflict minerals that sows the seeds of violence throughout the 
region.
                         security sector reform
    Leading the agenda for stability in the aftermath of the elections 
remains the question of army reform. The army is undisciplined and too 
often, unpaid. The ineffective integration of militias into the army 
and military operations against armed groups combined to increase the 
insecurity of communities throughout the Kivus. It also produced 
militarization of mineral production sites during the last 2 years. The 
consequence of this is violence against civilians and the emergence of 
mafia behavior by mine operators. Corruption in the natural resources 
sector overwhelms attempts to police and regulate the sector. 
Altogether, these problems indicate that there must be major reform of 
the army and general reform of the security sector as a whole.
    Also, there has been an almost grotesque incapacity to manage the 
demobilization and integration of former armed militias into the FARDC. 
Too many former militia members have not been vetted; too many have not 
been paid or trained; and too many have not been held accountable for 
past crimes against humanity.
    A critical mistake was made by allowing the militias to operate as 
an army within an army by not dissolving militia command structures 
after integration. Violent outbreaks persist throughout the country, 
particularly in the Kivu provinces, which will likely only intensify 
with growing tensions. As well, the justice system, plagued with 
corruption and limited resources from the DRC Government, has to be 
fundamentally reformed with an emphasis placed on holding accountable 
those who are accused of vicious crimes such as rape and sexual 
violence. Until prosecution and conviction become the norm for 
violators of fundamental principles, it will be very difficult for 
national development to take place.
    It also tends to underscore the rising unhappiness of sectors of 
the military over nonpayment of salaries, and the failure of 
integration of various armed groups (Mai Mai, FRF, PARECO and CNDP) in 
the FARDC. With respect to the CNDP, it once again shows that the 
failure to dismantle CNDP units as they were integrated into the FARDC 
harmed international efforts, including those of the EUSEC, to 
restructure the national army.
    With respect to army reform, the critical steps--regardless who 
ultimately is sworn in--are the following:

  <bullet> Comprehensive review of the chain of payment in the army;
  <bullet> Vetting of officers and investigation of suspected 
        involvement into natural resources trade by a special 
        commission of inquiry;
  <bullet> Design of a pension plan and retirement for the soldiers;
  <bullet> Restoring and reforming the military justice (revision of 
        the military code, training, screening of military magistrates, 
        appointment of ``clean military judges,'' etc.)
                    sexual and gender-based violence
    DRC has made little if no progress on sexual and gender-based 
violence. Suspected rapists among FARDC are almost never charged or 
arrested. Impunity is still the norm concerning FARDC. DRC Government 
and MONUSCO publicized the very few FARDC officers who were tried but 
prosecutions are usually cosmetic.
    The National Strategy against SGBV has been elaborated without deep 
civil society involvement and lacks ownership. There is no genuine 
political commitment by the Congolese Government. There is very little 
coordination between the various national civil society actors, 
international organizations, United Nations Agencies and local 
authorities.
                         lord's resistance army
    The LRA legislation that President Obama signed into law in May 
2010, which received broad bipartisan support in Congress, was an 
enormous step forward and reflected steps that Crisis Group had 
recommended, including: increased institutional capacity, enhanced 
coordinated DDR alongside greater military pressure which would include 
greater shared intelligence resources by UN/EU/US, and greater 
humanitarian support to LRA victims.
    On 14 October, 2011, the Obama administration announced the 
deployment of 100 military advisors to the region, making the clear 
point that they will be there in an advisory capacity, helping the 
UPDF, and are not authorized for combat unless in self-defense. A 
majority of the military advisors will stay in Kampala, with the rest 
to advise in the field. The move is part of a broader ramping up of its 
political and military engagement against the LRA. It has also offered 
to train more Congolese soldiers and has given equipment to the CAR 
army in order to win the operation political space. The few score field 
advisers should be able to improve the Ugandans' performance. The 
deployment, the Obama administration has made clear, will be short 
term.
    Uganda, with U.S. advice and support, should, therefore, lose no 
time in launching a reinvigorated attack on the LRA, if possible while 
most of the group's senior commanders and fighters are still in the CAR 
and before they can return to the DRC's more restrictive operational 
environment. A key part of the advice the United States should press on 
the Ugandan army is the need to prioritise protecting civilians, 
provide access to humanitarian agencies and accept stricter 
accountability for its actions. At the same time, full coordination 
with the AU is essential, particularly if it is able to oversee a 
multidimensional regional initiative, continuing after Kony's death or 
capture. Greater cooperation from Kinshasa with combined effort to put 
an end to Kony is essential.
                           conflict minerals
    We still have a long way to go to halt illegal trade of conflict 
minerals in the Great Lakes Region. On 10 September 2010, Kabila 
appeared to have banned the production and trade of minerals in the 
Kivus and Maniema and ordered the demilitarization of the mining zones. 
However, that declaration neither ended the mineral smuggling nor 
militarization of the mining zones, and the ban was lifted on 10 March 
2011.
    International actors responded by attempting to preemptively 
resolve the illegal trade problem by developing regulations aimed to 
prevent the flow of conflict minerals into the raw materials market, 
such as with the Dodd-Frank Act passed by Congress in July 2010.
    The provision mandates identifying the mines under the control of 
armed groups, introducing traceability and certification mechanisms to 
cover transfer from the mines to the trading counters, and encouraging 
importers to only buy certified minerals. The delay in the final SEC 
regulations (due in April, 2011 and now expected by the end of 
December, 2011) and the resulting required annual report submissions 
have stalled the full implementation of the Dodd-Frank measure.
                               conclusion
    DRC faces enormous challenges: Only one 1 of 10 Congolese has 
access to electricity; three-fourths of the population is 
undernourished according to the Global Hunger Index; less than a third 
of the rural population has access to clean water, less than half in 
the cities. The DRC ranks last, 187 out of 187 in the Human Development 
Index in 2011.
    During this tense and uncertain time in the DRC's history, it is 
imperative that the United States and the international community 
remain engaged.
    Thank you and I look forward to your questions.

    Senator Coons. Thank you, Mr. Schneider.
    Mr. Gambino.

    STATEMENT OF ANTHONY W. GAMBINO, FELLOW, EASTERN CONGO 
                    INITIATIVE, BETHESDA, MD

    Mr. Gambino. Thank you very much, Chairman Coons, Ranking 
Member Isakson. Thanks for the opportunity to testify before 
you at this historic, crucial moment for the Congo.
    I am a fellow at the Eastern Congo Initiative, but the 
views in this statement are mine alone.
    The Congo's recent election was clearly fraudulent. The way 
in which the aftermath of these fraudulent elections is managed 
will affect every issue of interest to the United States in the 
Congo. The outcome will decide whether Congo, after badly 
stumbling, can regain a democratic path. But the outcome also 
will have a determinative effect on U.S. efforts on sexual and 
gender-based violence, on broader respect for human rights, on 
security sector reform, on conflict minerals, on general 
development prospects, and on all other issues of interest to 
the United States regarding the Congo. If this crisis is not 
successfully resolved, it will not be possible to improve 
governance in meaningful ways, and Congo could descend into a 
deeper humanitarian disaster becoming unstable once again, 
affecting all of Central Africa and beyond.
    In 2006, the Congo held relatively good, free, and fair 
elections. Mvemba Dizolele and I were election monitors in 
2006. We saw this. The elections had flaws, but ultimately and 
most importantly it was clear that the person announced as the 
winner in the Presidential election, Joseph Kabila, indeed had 
won.
    How did Congo so rapidly descend from successful 2006 
elections to chaotic, brazenly fraudulent elections last month?
    As these elections approached, alarming signs grew that the 
Congolese electoral commission was fumbling badly in its role 
to plan and manage the elections.
    Just within Eastern Congo Initiative, we have been working 
all year for good elections, and an ECI delegation, headed by 
Cindy McCain, wife of Senator McCain, and ECI CEO Whitney 
Williams, was in Congo for the elections. A little earlier, in 
September of this year, my good friend, Mvemba Dizolele, and I 
published a paper in which we recommended greater engagement by 
the United States. Our paper's title was not particularly 
terse, but it certainly was clear: ``Technical Issues Threaten 
Free, Fair, and Transparent Elections in the Democratic 
Republic of the Congo, Urgent Steps Required.'' Mr. Chairman, I 
respectfully request that this ECI paper be included in the 
record.
    Senator Coons. Without objection.
    Mr. Gambino. Thank you, Mr. Chairman.
    Even earlier, in March, ECI's founder, Ben Affleck, sounded 
the alarm. This is what he said. ``The United States must do 
more to support the 2011 elections. Once these elections occur, 
the free and fair nature of the results should be above 
reproach. A finding of anything less risks Congo's stability 
and democratic progress.'' He then provided a long list of 
concrete recommendations for U.S. policymakers. I am sad to say 
every one of those recommendations was ignored. He said ``if we 
continue to place the Congo on the back burner of U.S. policy, 
it will come back to haunt us.'' That is precisely where we are 
today.
    Let us be clear about the facts. The election results 
lacked credibility for two central reasons. First, the head of 
the electoral commission, Reverend Mulunda, badly botched 
preparations for the elections and was complicit in the 
preparation and reporting of clearly fraudulent results. 
Second, there has been a massive attempt by other supporters of 
President Kabila to steal the election.
    One clear implication of these facts is that Reverend 
Mulunda should immediately be replaced. No reasonable person 
can have any confidence in his ability to play a useful role in 
this process from this point on.
    A second implication is that the United States needs to 
think through what it means that supporters of a sitting head 
of state just organized a massive effort across multiple 
provinces to fraudulently alter and manipulate election 
results. And right now, it is clear that President Kabila's 
security forces are working hard to suppress, harass, and 
intimidate opposition supporters through the threat and in some 
instances the use of violence.
    Intense discussions are underway around the world to 
consider what to do next. Many different scenarios and options 
are under discussion. Whichever specific route is taken, the 
required end point is clear. The Congolese people must see the 
man they have democratically chosen as their next President as 
the man who takes office for the next 5 years. And I want to 
emphasize that as of today, it is simply not possible to know 
whether Joseph Kabila or Etienne Tshisekedi is that man, the 
legitimate democratically elected President of the Congo, based 
on a credible electoral victory.
    Absent a reasonable process, if President Kabila continues 
to function as head of the Congo, he governs without a shred of 
democratic legitimacy. That is not a formula for stability in 
the Congo or in Central Africa as a whole. Such an outcome 
would be deeply counter to both the interests and the values of 
the United States and would risk another humanitarian crisis 
and greater prolonged conflict and instability in Central 
Africa.
    Secretary Clinton and President Obama need to state now, 
both publicly and privately, that the United States is engaged 
both to help diffuse this crisis and to find a way forward that 
respects and honors the democratic aspirations of the Congolese 
people. They should communicate this directly to a number of 
people, including President Kabila and Mr. Tshisekedi.
    Thank you very much. I am happy to answer your questions.
    [The prepared statement of Mr. Gambino follows:]

                Prepared Statement of Anthony W. Gambino

    Chairman Coons, Ranking Member Isakson, members of the Subcommittee 
on African Affairs, thank you very much for the opportunity to testify 
before you at this historic, crucial moment for the Democratic Republic 
of the Congo (DRC). I am a Fellow at the Eastern Congo Initiative 
(ECI), but today I am not here representing ECI; the views in this 
statement are mine alone.
    The Congo's recent election clearly was fraudulent. The way in 
which the aftermath of these fraudulent elections is managed will 
affect every issue of interest to the United States in the Congo. It is 
apparent that the outcome will show whether Congo, after badly 
stumbling, can regain a democratic path. But the outcome also will have 
a determinative effect on U.S. efforts on conflict minerals, on sexual 
and gender-based violence, on broader respect for human rights, on 
general development prospects, on security sector reform, and on all 
other issues of interest to the United States. If this crisis is not 
successfully resolved, it will not be possible to improve governance in 
the Congo in meaningful ways. If the present situation is not managed 
successfully, Congo could descend once again into a deeper humanitarian 
disaster.
    I first went to the Congo in 1979 as a Peace Corps Volunteer and 
have followed it ever since. Please allow me to emphasize what a great, 
important program the Peace Corps is. I wouldn't be doing what I am 
doing now--I wouldn't be before you today--if the Peace Corps had not 
given me the opportunity to spend 3 years as a teacher in a country 
then called Zaire. I left Zaire with the clear sense that my Congolese 
students, colleagues, and many new friends had given me so much more 
than I was able to give them.
    I continued to look for ways to work on the Congo after my Peace 
Corps service, and, in 1997, after Mobutu fell, I moved from the State 
Department to USAID to coordinate USAID's reengagement. In 2001, I was 
given the honor to return to Congo to run the USAID mission, which I 
did from 2001-2004. Despite the many difficulties in governance in the 
Congo, USAID supported programs that had great success in many areas, 
including improving the health of Congolese and fighting corruption.
    During my 3 years in Zaire as a Peace Corps Volunteer, I saw the 
life-diminishing, debilitating effects that a corrupt dictatorship had 
on the citizens of a country. During my 3 years in Congo with USAID, I 
witnessed something positive and life-affirming: the ending of a 
horrible war and the start of a transition to democracy. President 
Joseph Kabila deserves tremendous credit for leading his country away 
from the path of war, division, and destruction taken by his father, 
Laurent, and toward reconciliation, unity, and peace. And the United 
States deserves credit for supporting the move to peace and 
reconciliation. I was in Congo when the transition began in mid-2003, 
and saw firsthand all the work that our able diplomats did to support 
this fragile, complex process.
    In 2006, at the end of the transition period, the people of the 
Congo voted for their national leaders. I returned to the Congo then as 
an elections observer for the Carter Center. I saw what can happen when 
a government and its citizens are strongly, effectively supported by 
the international community. The 2006 elections had flaws, but, 
ultimately and most importantly, it was clear that the person announced 
as the winner in the Presidential election--Joseph Kabila--indeed had 
won. Following these elections, the Carter Center noted: ``The Carter 
Center election observation mission to the Democratic Republic of the 
Congo is confident the results announced by the Independent Electoral 
Commission (CEI) are consistent with the results obtained in the 
polling stations. The provision of original tally sheets to candidate 
witnesses, combined with the publication of results by polling station, 
introduced a strong measure of transparency that virtually eliminated 
the possibility of significant fraud after the ballots were counted.''
    The Congo has just held its next national election. Here is what 
the Carter Center published on December 10: ``The Carter Center finds 
the provisional Presidential election results announced by the 
Independent National Election Commission (CENI) on December 9 in the 
Democratic Republic of the Congo to lack credibility.'' The head of the 
Catholic Church in Congo, Cardinal Laurent Monsengwo, said on December 
12 that ``after analyzing the results made public by the CENI on 
Friday, December 9, 2011, it is appropriate to conclude that these 
results do not conform to the truth, nor to justice.''
    What happened? How did the Congo backtrack from relatively good 
elections in 2006 to the brazenly fraudulent elections of last month? 
What role did U.S. actions play?
    The United States saw the 2006 national elections as an exit 
strategy from heavy political/diplomatic involvement in the Congo. In 
2006, the United States and others felt that the situation finally was 
good enough in the Congo because successful elections had taken place. 
This conclusion was reached despite evidence to the contrary both from 
the Congo itself and from careful international research on the 
trajectory of conflicts. After years of serious diplomacy to help the 
Congolese transition succeed, key international actors succumbed to 
wishful thinking, reducing their levels of political engagement with 
the new Congolese Government.
    Research on fragile states like the Congo strongly suggests that 
these states become more, not less, fragile after elections, and are 
acutely vulnerable in the period following elections. Such elections 
are not an exit strategy; rather, successful democratic elections 
require maximum support and engagement from the United States in the 
months and years immediately afterward. Instead of doing this, the 
United States did the precise opposite.
    In the runup to the 2011 elections, the United States, the U.N. 
Mission in the Congo, known as MONUSCO, and other international actors 
chose not to engage adequately to support free, fair, transparent, and 
credible elections in the Congo. As the 2011 elections approached, 
alarming signs grew that the Congolese Electoral Commission (known by 
its French acronym as the CENI) was fumbling badly in its role to plan 
and manage the elections.
    In a Special Election Report released by the Eastern Congo 
Initiative in September of this year, Mvemba Dizolele and I recommended 
greater engagement by the United States and others in the international 
community. The paper's title was not terse, but it certainly was clear: 
``Technical Issues Threaten Free, Fair, and Transparent Election in the 
Democratic Republic of the Congo: Urgent Steps Required.'' I 
respectfully request that this ECI report be included in the record.
    Even earlier this year, in March, Eastern Congo Initiative's 
founder, Ben Affleck, sounded the alarm loudly in a hearing on the 
other side of Capitol Hill. He said then that ``the U.S. must do more 
to support the 2011 elections. . . . Once the elections occur, the free 
and fair nature of the results should be above reproach. A finding of 
anything less risks Congo's stability and democratic progress.'' He 
provided a long list of concrete recommendations for U.S. policymakers, 
all of which were ignored.
    He ended his testimony by stating his belief ``that if we continue 
to place the Congo on the back burner of U.S. policy it will come back 
to haunt us.''
    That is precisely where we are today.
    Now that the Congo has held clearly fraudulent elections, the 
United States faces another crisis in the Congo. To move forward, the 
United States must come to terms with a series of uncomfortable facts. 
First, as the Catholic Church, the Carter Center, the European Union 
Observer Mission, and others have said, these election results lack 
basic credibility. Second, they lack credibility because of 
disorganization on the part of the CENI, and also because of a massive 
attempt by supporters of President Kabila to steal the election. Third, 
the present head of the Congolese Electoral Commission, Reverend 
Mulunda, not only badly botched preparations for the election, he was 
complicit in the preparation and reporting of clearly fraudulent 
results.
    One clear, immediate implication of these three facts is that 
Reverend Mulunda should immediately be replaced. No reasonable person 
can have any confidence in his ability to manage this process from this 
point on. A second implication is that all of us need to think through 
what it means that supporters of the sitting Head of State just 
organized a massive effort, across multiple provinces, to fraudulently 
alter and manipulate election results.
    Inside and outside the Congo, inside and outside the U.N. and 
governments like our own, intense international efforts are under way 
to help the Congolese avert disaster. Many different scenarios and 
options are under discussion. Whichever path is taken, the end point is 
clear: The Congolese people deserve the leader that they have 
democratically chosen as their next President. As of today, it is not 
clear who that man is. A way must be found to do so.
    The way in which the aftermath of these fraudulent elections is 
managed will affect every issue of interest to the United States in the 
Congo. It is apparent that the outcome will show whether Congo, after 
badly stumbling, can regain a democratic path. But the outcome also 
will have a determinative effect on U.S. efforts on conflict minerals, 
on sexual and gender-based violence, on broader respect for human 
rights, on general development prospects, on security sector reform, 
and on all other issues of interest to the United States. If the crisis 
is not successfully resolved, it will not be possible to improve 
governance in the Congo in meaningful ways. If the present situation is 
not managed successfully, Congo could descend once again into a deeper 
humanitarian disaster.
    A new development in the State Department is the recent appointment 
of a Special Advisor to the Assistant Secretary of State for African 
Affairs for the Great Lakes and the Democratic Republic of the Congo. 
ECI and other organizations have long bemoaned problems of coherence 
within the U.S. Government--that the United States has many people 
working on many different issues relating to the Congo, but not in a 
well-coordinated fashion. This was a central reason that ECI and other 
organizations called for the appointment of a special envoy. The newly 
appointed Special Advisor to Assistant Secretary Carson, Barrie 
Walkley, should be given the authority within the State Department and 
elsewhere within the U.S. Government to forge much better coordination 
across issues. Of course, his ability to be effective will depend on 
actions by senior U.S. officials, including President Obama and 
Secretary Clinton, to successfully resolve the present crisis.
    Why has the United States encountered so much difficulty in 
wrestling with problems like conflict minerals and continued high 
levels of sexual and gender-based violence in eastern Congo? Will the 
appointment of a Special Advisor fix the problem? On one level, the 
answer is simple: When senior officials in the Congolese state are, at 
best, uninterested and, at worst, complicit in the abuses, how much 
progress can outside actors make? When a government is unresponsive to 
the suffering of its own people, how much progress can outside actors 
make?
    After the 2006 elections, the Congolese national government 
continued to struggle to exercise the essential functions of an 
effective state. Instead of focusing on key development priorities, the 
Congolese state took a different path. The dominant ruling party moved 
to further concentrate and centralize its power. This was done despite 
strong decentralization provisions in the Congolese Constitution and 
general agreement that effective decentralization is essential for 
improved governance the Congo.
    These governance problems are so daunting, in fact, that some argue 
that in the face of so little political will, the right decision is 
withdrawal. I utterly reject that option. Withdrawal by the United 
States and others is not a plausible option since it necessarily leads 
backward to catastrophic collapse, humanitarian disaster, regional 
instability, and renewed warfare. Disengagement runs counter to both 
the interests and values of the United States.
    The dilemma of engagement, however, remains: What should 
international actors do when the state is not fulfilling its basic 
functions? There is a straightforward set of actions that, if followed, 
provide a coherent framework of action to improve governance in the 
Congo. The heart of this proposal, which I call ``TPA,'' is that 
successful programs to improve governance require consideration of and, 
if necessary, action on three specific elements:

  <bullet> Effective Training,
  <bullet> Adequate Pay, and
  <bullet> Accountability for actions.

    First, the ``T.'' Training is a staple of U.S. activities, but 
training is normally done as a stand-alone intervention, with the 
regularly unrealistic assumption that somehow disparate, scattershot, 
uncoordinated training will lead to better performance and on-the-job 
results. Facts on the ground from around the world, including in the 
Congo, amply prove otherwise. Even assuming well-coordinated and 
effective training (far from today's reality), training alone, while 
necessary, remains insufficient.
    The key is the ``P.'' Pay affects performance: When trained 
officials return to their horribly paid positions, they revert to poor 
performance. Adequate salaries, with salaries paid on time every month, 
to both civil servants, police, and soldiers, is essential to improve 
governance in fragile states like the Congo.
    However, efforts to accomplish salary reform at a national level 
almost always fail in states like the DRC. To pay adequate, sustainable 
salaries to all civil servants requires fundamental civil service and 
budget reform. In the Congo, the government is presently unwilling to 
do this. Under TPA, the donors do not have to choose between the 
equally unpalatable options of pushing the government toward 
politically dangerous comprehensive civil service reform or doing 
nothing.
    The optimal approach is for the Congolese Government to provide all 
the necessary resources, including salaries that are at least minimally 
adequate, using its own funds. Determining the actual capacity of the 
Congolese state to do so should be done by the IMF and the World Bank. 
If the IMF and Bank believe that the Congolese Government does not 
possess sufficient resources, or if the Congolese Government is 
unwilling to do so, donors must engage in a frank dialogue with the 
Government regarding the provision of these resources.
    Of course, adequate pay is only one of the necessary requirements 
to create incentives for acceptable on-the-job performance. Officials 
require adequate resources in a variety of areas relating to the 
conditions of their service in order for them to perform their 
functions effectively.
    The United States present approach to providing these resources, 
including paying salaries or salary supplements, is incoherent. In 
lower priority countries, U.S. officials say that they cannot pay 
salaries because it is not sustainable. Yet, the ``T'' and ``P'' part 
of TPA describes the way the United States does business in countries 
of particular interest. For example, in Afghanistan and Iraq, the 
United States has trained and paid enormous numbers of officials. The 
United States has paid police salaries in Liberia and elsewhere.
    My point is not that the United States should be paying salaries 
everywhere; rather, it is that the United States must recognize the key 
importance of this issue and think through coherent, sensible, workable 
approaches. Too often in countries like the Congo--I made this mistake 
myself when serving as the USAID Mission Director--U.S. officials just 
refuse to think carefully through these issues, because they raise 
difficult, uncomfortable questions both for U.S. and Congolese 
policymakers.
    Finally, the ``A'' of accountability. It is particularly in the 
context of accountability that Congolese civil society has a crucial 
role to play. The United States should support civil society's role in 
monitoring and evaluating the government's implementation. This is an 
essential part of a durable solution.
    Assuming that Congo emerges from its present electoral crisis and 
regains a democratic path, TPA can help guide the U.S. Government 
toward a more effective approach to improve governance.
    If the Congolese military and police continue to be ill-paid and 
unaccountable for their actions, no amount of training will change 
that, and the Congolese security forces' role in committing sexual 
crimes will continue.
    If the Congolese justice sector continues to be severely 
underfunded and staffed by unqualified, untrained personnel who are 
poorly paid and receive few incentives for good performance, do we 
think that impunity will be reduced through legal action and occasional 
aid projects? If so, we, too, are engaging in wishful thinking.
    If customs officials and others responsible for maintaining a 
responsible chain of supply from the mines are ill-paid and subject to 
harassment from armed men who act with impunity because the legal 
system is dysfunctional, do we believe that the conflict minerals 
problem will diminish?
    The US needs to work with Congolese actors and a wide spectrum of 
international agencies, from the IMF to USAID-funded NGOs, to attack 
the fundamental deficiencies underlying poor governance.
    Following the 2006 elections, the United States based its actions 
in the Congo on President Kabila's new legitimacy, gained through 
reasonably free and fair elections. Last month, millions of Congolese 
turned out to vote for their leaders at the national level. The vast 
majority of Congolese want peace and development. They want a better 
life for their children. Human aspirations are the same, whether you 
live in Bukavu or in Bethesda.
    As of today, it is not possible to know whether Joseph Kabila or 
Etienne Tshisekedi is the legitimate President of the Congo based on a 
credible electoral victory. Absent a reasonable process, the next 
person who declares himself head of the Congo would govern minus 
democratic legitimacy. This is not a formula for stability in the Congo 
or in central Africa as a whole. Such a result would be deeply counter 
to both the interests and values of the United States and risks another 
humanitarian crisis and greater, prolonged conflict. The United States 
must dramatically ratchet up its efforts to find a way to defuse this 
crisis and find a way forward that respects and honors the democratic 
aspirations of the Congolese people.

    Senator Coons. Thank you, Mr. Gambino.
    Mr. Dizolele.

STATEMENT OF MVEMBA PHEZO DIZOLELE, FELLOW, HOOVER INSTITUTION, 
                         WASHINGTON, DC

    Mr. Dizolele. Chairman Coons, Ranking Member Isakson, thank 
you for the invitation and honor to testify before your 
committee today. I greet you on behalf of the millions of 
Congolese in the homeland who look up to the United States as a 
beacon of democracy. I would also like to thank you on behalf 
of the Congolese community of the United States for your 
interest in the alarming developments in the Democratic 
Republic of Congo. Thank you.
    My name is Mvemba Phezo Dizolele. I am a native Congolese 
and a naturalized U.S. citizen. I would like to note that I 
received my American citizenship through service in the United 
States Marine Corps Reserve where I was a noncommissioned 
officer and served in infantry, intelligence, training and 
operations, and public affairs positions.
    I recently returned from Congo where I observed the 
contentious Presidential and legislative elections that have 
led to the current legitimacy crisis between President Joseph 
Kabila and his main challenger, Etienne Tshisekedi.
    I am neither a member of the opposition nor a supporter of 
the Presidential majority. I speak on behalf of the Congolese 
people. While I do not represent all 70 million Congolese, I am 
confident that I speak for a good many of them. Still, my views 
are my own today.
    I would just like to put a little bit of context in this. 
The most widely accepted narrative of U.S. Congo policy defines 
the predicament of the country as a humanitarian crisis through 
the binary prism of sexual violence and the so-called conflict 
minerals. This narrative has now become the standard 
perspective through which Americans view Congo, and most NGOs, 
activists, academics, and policymakers like yourselves build 
your work around this prism. Not only is this narrative wrong, 
it has led to misguided initiatives such as the Dodd-Frank Act 
which contains an important resolution on Congo's conflict 
minerals, effectively turning U.S. Congo policy into a Kivu 
policy. This narrative oversimplifies the problem and makes 
American taxpayers believe that if only the challenges of 
sexual violence and conflict minerals were solved, then Congo 
will get back on track and peace will follow. Nothing, however, 
is farther from the truth. The Congo crisis is first and 
foremost political and requires political solutions.
    The disproportionate attention that policymakers directed 
to sexual violence and conflict minerals distracted them from 
the many other important core issues, such as governance, 
security sector reform, mining sector reform, decentralization, 
and the elections. The result has been catastrophic for the 
Congolese.
    The crisis, as we know it and as we discussed today, 
started, of course, on December 9 when Daniel Ngoy Mulunda, 
chairman of the electoral commission, declared President Kabila 
winner of the contentious election with 49 percent of the vote. 
Tshisekedi who placed second has rejected the results, called 
Mulunda's statement a ``provocation of the people'' and 
declared himself President-elect. The main opposition parties 
have rallied behind Tshisekedi and are calling on the 
international community to help solve the impasse.
    Meanwhile, the government has reacted swiftly and 
forcefully unleashing armed antiriot policemen, and elements of 
the elite Presidential guard, into the streets of Kinshasa to 
confront Tshisekedi's partisans. Several people have been 
killed in clashes between state security agents and the 
protesters. An unconfirmed number of young men have been 
abducted from their homes by the same agents and driven to 
undisclosed locations.
    The government has cut off text messaging services and 
Internet access is now limited, slow, and intermittent. The 
diplomatic community has exhorted Tshisekedi supporters to 
refrain from violence, but has not condemned abuses by state 
security agents. As of this writing, the Limete neighborhood 
where Tshisekedi's residence and party headquarters are located 
is under heavy police siege. The movement and activities of his 
supporters are curtailed by state security agents who harass 
and manhandle them at checkpoints, provoking them into more 
violence.
    But the real genesis of the crisis goes back to December 
2010 when Tshisekedi, who had been sick and seeking treatment 
in Europe, returned unexpectedly to Congo and announced his 
candidacy for the Presidency. Kabila's advisors panicked and 
the President's parliamentary majority passed a hasty 
constitutional revision in January 2011 that scrapped the two-
round voting process in favor of a one-round, all within 1 
week.
    Opposition parties, along with civil society groups, 
denounced the constitutional revision calling it irresponsible 
and dangerous for the security and stability of the country. 
Major powers in the West, however, especially the United 
States, France, and Belgium, wrote off the power play as an 
internal affair. Throughout all of this, Western embassies 
appeared content to look the other way. Diplomats from the 
United States, France, Britain, and Belgium praised the CENI 
for enrolling 32 million voters, no doubt an impressive feat 
considering the enormous logistical challenges. But voter 
enrollment was the first step of an electoral process, not the 
end.
    These same international actors remained silent about the 
allegations of fraud and irregularities, even as Congolese and 
international human rights organizations denounced violence and 
abuses. Their silence has helped spawn the crisis that could 
have easily been averted.
    At stake is nothing less than the stability of the country 
of 70 million people. Unless the international community takes 
its responsibility to help protect the Congolese from conflict 
seriously, Congo will slide into greater post-election 
violence. If this fits with the mandate of your committee, the 
U.S. Senate should investigate this electoral disaster. A mixed 
panel of highly respected Congolese and outside negotiators 
should be selected with the full support of the United States, 
France, Belgium, and other relevant powers to review and 
address inconsistencies that have caused this crisis. The 
alternative is to let the Supreme Court certify Kabila's 
provisional victory and hand him another 5-year term, in which 
case we better watch out. The opposition will reject this 
victory, but an emboldened Kabila with questionable legitimacy 
will assert his power with greater popular repression, 
triggering a cycle of violence with untold ramifications.
    After decades of mismanagement and chronic conflict in 
Congo, this election presented the people with a chance to 
rebuild their country. With its vast natural and human 
resources, Congo has the potential to be a regional power, as 
it once was, providing stability and leadership in an area 
known for turmoil. But if the Congolese are robbed of a fair 
and honest say in their national politics, such potential will 
remain but an illusion.
    I thank you.
    [The prepared statement of Mr. Dizolele follows:]

              Prepared Statement of Mvemba Phezo Dizolele

    Chairman Coons, Ranking Member Isakson, and members of the 
Subcommittee on African Affairs, thank you for the invitation and honor 
to testify before your committee today. I greet you on behalf of the 
millions of Congolese in the homeland who look up to the United States 
of America as a beacon of democracy. I would also like to thank you on 
behalf of the Congolese community of the United States for your 
interest in the alarming developments in the Democratic Republic of 
Congo. Thank you.
    My name is Mvemba Phezo Dizolele, a native Congolese and a 
naturalized U.S. citizen. Let me note that I received my American 
citizenship through service in the United States Marine Corps Reserve, 
where I was a noncommissioned officer and served in infantry, 
intelligence, training and public affairs positions. I am a writer, 
foreign policy analyst, independent journalist, and a Visiting Fellow 
at the Hoover Institution on War, Revolution and Peace at Stanford 
University.
    Over the last decade, I have returned to Congo several times as a 
journalist, researcher, businessman, vacationer, and election monitor. 
In 2006, I was embedded with United Nations peacekeepers in Ituri, Lake 
Albert, and South Kivu as a reporter. I also covered the first round of 
the election that summer and returned in the fall to serve as an 
election monitor with the Carter Center. In March 2007, I was stranded 
at the Grand Hotel in Kinshasa for 4 days while troops and militiamen 
loyal to President Joseph Kabila and Jean-Pierre Bemba fought each 
other in the city streets and around the hotel. I recently returned 
from Congo where I observed the contentious Presidential and 
legislative elections that have led to the current legitimacy crisis 
between Joseph Kabila and his main challenger, Etienne Tshisekedi.
    Today, however, I represent neither the Marine Corps nor the Hoover 
Institution. I speak on behalf of the Congolese people. While I do not 
represent all 70 million Congolese, I am confident that I speak for a 
good many of them. Still, the views expressed in this statement are my 
own.
    The most widely accepted narrative of U.S. Congo policy defines the 
predicament as a humanitarian crisis through the binary prism of sexual 
violence and the so-called conflict minerals. This narrative has now 
become the standard perspective through which Americans view Congo, and 
most NGOs, activists, academics, and policymakers build their efforts 
around this prism. Not only is this narrative wrong, it has led to 
misguided initiatives, which have effectively turned U.S. Congo policy 
into a Kivu policy.
    Tremendous efforts have been devoted to sexual violence and 
Congress passed the Dodd-Frank Act, which contains an important 
resolution on Congo's conflict minerals. This narrative oversimplifies 
the problem and makes American taxpayers believe that if only the 
challenges of sexual violence and conflict minerals were solved, then 
Congo will get back on track and peace will follow.
    Nothing, however, is farther from the truth. The Congo crisis is 
first and foremost political and requires political solutions. Sexual 
violence and the looting of natural resources are ramifications and 
symptoms, not the causes of the political crisis. Focusing U.S. Congo 
policy primarily in the eastern province, particularly the Kivus, which 
are but a fraction of the country, has not helped the people of Congo 
solve the bigger problem. This would be akin to designing a U.S.-India 
or U.S.-Pakistan policy based on the conflict in Kashmir.
    The disproportionate attention that policymakers directed to sexual 
violence and conflict minerals distracted them from the many other 
important core issues, such as governance, security sector reform, 
mining sector reform, decentralization, and the elections.
    The result has been catastrophic for the Congolese. For instance, 
nowadays, nowhere are crises more predictable than in the Democratic 
Republic of the Congo. And yet, when they unfold as anticipated, 
Western policymakers and diplomats always seem caught off guard--
raising questions about the competence, willingness, and commitment of 
the Kinshasa-based diplomatic corps and the United Nations mission to 
discharge their responsibilities.
    Nothing underscores the apathy and inconsistency that characterize 
Western diplomacy in Congo more than the current impasse between 
incumbent President Joseph Kabila and veteran opposition leader Etienne 
Tshisekedi, each of whom has claimed victory in the November 28 
Presidential polls. The legitimacy crisis threatens to trigger another 
round of civil war in a country that has already lost over 6 million of 
its people to the repercussions from a long and senseless conflict.
    On December 9, Daniel Ngoy Mulunda, chairman of Congo's Independent 
National Electoral Commission, declared President Kabila winner of the 
contentious election, with 49 percent of the votes. Tshisekedi, the 
main challenger, placed a distant second with 32 percent. Tshisekedi 
has rejected the results, called Mulunda's statement a ``provocation of 
the people'' and declared himself President-elect. The main opposition 
parties have rallied behind Tshisekedi and are calling on the 
international community to help solve the impasse.
    The opposition has a strong case. A day after Mulunda declared 
Kabila the winner, the Carter Center's election monitoring mission 
issued an unequivocal statement charging that the results announced by 
the electoral commission lacked credibility. The observers noted that 
the mismanagement of the vote tabulation process compromised the 
integrity of the election, which was fraught with damning legal, 
technical, and logical deficiencies from the outset. The Carter Center 
cited serious irregularities, including the loss of nearly 2,000 
polling station results in Kinshasa, a Tshisekedi stronghold, 
representing as many as 350,000 voters. Another 1,000 polling station 
results were mysteriously lost elsewhere in Congo, representing 500,000 
voters.
    Meanwhile, according to the Carter Center, multiple locations in 
Katanga province, a bastion of Kabila supporters, reported impossibly 
high rates of 99 to over 100 percent voter turnout, with all or nearly 
all votes going to the incumbent. The observers also noted that a 
review of locations with similar high percentage votes for Tshisekedi 
did not reveal the same coincidence of perfect collection of polling 
station results and extremely high voter turnout--meaning that voter 
turnout in Tshisekedi's strongholds was within expected norms. The 
Catholic Church, arguably Congo's most influential institution, which 
deployed 30,000 election observers across the country, backed the 
Carter Center's statement. Cardinal Laurent Monsengwo, Archibishop of 
Kinshasa, told journalists the electoral commission's results conformed 
with neither truth nor justice. ``These observations pose a serious 
credibility problem for the election,'' the cardinal said.
    Kabila waited nearly 3 days to hold a news conference and react to 
the Carter Center's statement and Tshisekedi's rejection of the 
results. He conceded that there had been problems with the process, but 
dismissed the mission's conclusion that the results were not credible. 
``The credibility of these elections cannot be put in doubt,'' the 
President insisted, as he accused the Carter Center of going beyond 
what was expected. Throughout the process, the electoral commission had 
maintained that the role of monitors was only to observe, not to ask 
questions.
    While Kabila remained silent, his government was reacting swiftly 
and forcefully, unleashing armed antiriot policemen and elements of the 
elite Presidential guard into the streets of Kinshasa to confront 
Tshisekedi's partisans. Several people have been killed in clashes 
between state security agents and the protesters, and an unconfirmed 
number of young men have been abducted from their homes by these same 
agents and driven to undisclosed locations.
    The bustling capital of nearly 10 million has turned into a ghost 
city, as the people are afraid to venture out of their homes. The 
government has cut off text-messaging services, and Internet access is 
now limited, slow and intermittent. The diplomatic community has 
exhorted Tshisekedi's supporters to refrain from violence, but has not 
condemned abuses by state security agents. As of this writing, the 
Limete neighborhood where Tshisekedi's residence and party headquarters 
are located is under heavy police siege. The movement and activities of 
his supporters are curtailed by state security agents who harass and 
manhandle them at checkpoints, provoking them into violence.
    In the meantime, Tshisekedi is threatening to appoint his 
ministerial cabinet and Congolese diaspora communities have taken to 
the streets in Pretoria, Brussels, Washington DC, and Toronto to 
protest these abuses and demand that the international community 
respect the will of the people as expressed through their vote. Some 
exiled groups, however, are speaking of potential armed insurrection.
    How did we get here? The root cause of the crisis can be traced 
back to bad policymaking by the pro-Kabila Presidential majority in 
Parliament. After Jean-Pierre Bemba, former Presidential hopeful and 
Kabila's main challenger in the 2006 election, was arrested by the 
International Criminal Court in 2008 for crimes committed by his 
soldiers in Central African Republic, Kabila's reelection in 2011 
seemed all but certain. Tshisekedi, who had boycotted the 2006 
election, was old, sick, and seeking medical care in Europe. No other 
potential candidate had either the stature or the funds to compete with 
Kabila.
    All that changed when Tshisekedi decided to return home in December 
2010 and announced that he would run for President. With thousands of 
supporters turning out to greet him at the airport, his cortege took 8 
hours to travel 10 miles to his party's headquarters in Limete. 
Kabila's advisers panicked, and the President's parliamentary majority 
passed a hasty constitutional revision in January that scrapped the 
two-round voting process in favor of one round within 1 week.
    Without the possibility of a runoff, Kabila--with his 10 years in 
office, an organized network of parties, and substantial government 
funds not available to the opposition--gained a disproportionate 
advantage as the incumbent. The constitutional revision meant that the 
President only needed to garner the most votes of all 11 candidates, 
rather than a majority.
    Opposition parties along with civil-society groups denounced the 
constitutional revision, calling it irresponsible and dangerous for the 
security and stability of the country. Major powers in the West, 
however, especially the United States, France, and Belgium, wrote off 
the power play as an internal affair.
    For reasons that elude Congolese analysts, Western diplomats feel 
more comfortable with Kabila, whom they see as the defender of 
stability and peace in Congo. It is true that the government in 
Kinshasa has recently made economic gains. The country coasted through 
the global financial crisis relatively unscathed. In 2010, the 
International Monetary Fund and the World Bank approved a $12.3 billion 
debt relief package to help alleviate Kinshasa's financial burden, 
which was part of the Mobutu legacy. And largely because of investment 
in the country's extractive sector, particularly copper, the World Bank 
expects Congo's economy to grow over the next several years at around 7 
percent annually, one of the fastest economic growth rates in Africa. 
But over the last decade of Kabila leadership, little has changed for 
the average Congolese--who is worse off than he or she was in the 
previous decade. With a chronically weak state, Congo has consistently 
performed poorly on human development rankings and continues to place 
at the bottom of most indexes.
    These same diplomats view Tshisekedi as intransigent and difficult, 
and often dismiss him as irrational. In private, they point to his 
uncompromising positions and the statements he made last month in South 
Africa (declaring himself President) as signs of an unsuitable 
personality for the nation's highest office. But many Congolese see him 
as the father of the modern democratic movement. His partisans revere 
him as a messiah--in part, no doubt, because he is everything that 
Kabila is not: He has no money, no militia, and no state machinery 
behind him.
    A former close associate of the late President Mobutu, Sese Seko, 
Tshisekedi broke off with the strongman to fight for democracy in 1982 
when he cofounded the Union pour la Democratie et le Progres Social 
(UDPS). He has built a loyal and committed base over three decades. 
Over the years, Tshisekedi was imprisoned, tortured, and deported to 
his native village by both the Mobutu and Kabila regimes. But he never 
relented.
    Western diplomats' bias notwithstanding, the crisis also stems from 
the inadequate performance of Congolese leaders, who waited until March 
2011 to set up the electoral commission, known as the CENI, to carry 
out the vote. The delay--the law mandated that it be established in 
2007--undermined the complex operations ahead. Just days before the 
election, ballots and boxes had still not made their way to all of the 
country's polling places.
    Tshisekedi's Democratic Union for Social Progress sounded the alarm 
in July about potential problems with the process and filed an official 
complaint with the CENI about what it called massive fraud and 
corruption of the voter registry. UDPS alleged that the CENI had been 
stocking voter rolls with potential Kabila supporters. They also 
alleged that more than 2 million voters listed in areas favorable to 
Kabila were either redundancies or phony names. For its part, the CENI 
has repeatedly rejected UDPS's call for a transparent, independent 
audit of voter lists.
    As grievances and disputes over electoral law arose, the CENI 
failed to provide an adequate forum for dialogue with the opposition, 
holding meetings on an ad hoc basis, driven by events or crises, not by 
a set schedule. As a result, UDPS staged weekly street protests in 
Kinshasa to demand that the integrity of the electoral process be 
reinstated through an independent audit of the voter registry. Police 
and security services cracked down on the protests and intimidated 
members of the opposition.
    The CENI consists of four members from the majority, including 
Chairman Daniel Ngoy Mulunda, and three representatives of the 
opposition. But, the independence of these commissioners has been 
called into question as the CENI has regularly shown bias against the 
opposition. Mulunda is very close to President Kabila and the other 
commissioners rarely took a public stance on the electoral debate to 
assert their independence. The media landscape also tilted heavily in 
the President's favor.
    In its preliminary report on the election, the European Union 
Election Observation Mission noted that state-run radio and television 
channels did not grant opposition parties equal access to programming 
time as required by law. During the news slot, Kabila received 86 
percent of the time consecrated to Presidential candidates, Kengo Wa 
Dondo received 7 percent, Vital Kamerhe received 3 percent, and Etienne 
Tshisekedi received 1 percent. Indeed, the state media made no effort 
to hide its bias: Gigantic posters of a smiling Kabila hung (and still 
hang) on the two facades of the national radio and television 
headquarters. In Kinshasa, the road from the airport to downtown was 
(and is still) saturated with billboards of Kabila. All of these 
violations were ignored.
    Throughout all of this, Western embassies appeared content to look 
the other way. Diplomats from the United States, France, Britain, and 
Belgium have praised the CENI for enrolling 32 million voters, no doubt 
an impressive feat considering the enormous logistical challenges. But 
voter enrollment was the first step of an electoral process--not the 
end. These same international actors remained silent about the 
allegations of fraud and irregularities, even as Congolese and 
international human rights organizations denounced violence and abuses. 
Their silence has helped spawn a crisis that could have easily been 
averted.
    Inexplicably, even with the strong statements by the Carter Center 
and the Catholic Church, Western diplomats--from the U.S. State 
Department to the French and Belgian ministries of foreign affairs to 
the United Nations--remain ambivalent. They continue to hedge their 
positions, hesitant to speak in the strongest of terms in favor of a 
transparent, credible, and fair process. They further worsen the crisis 
by consistently blaming street violence on the opposition even as they 
ignore the massive human rights abuses by state security agents. This 
blatant bias in favor of perpetrators of gross human rights violations 
erodes the fig leaf of credibility the international community has in 
the eyes of the Congolese voters and opposition.
    At stake is nothing less than the stability of a country of 70 
million people. Unless the international community takes its 
responsibility to protect the Congolese from conflict seriously, Congo 
will slide into greater post-election violence. A mixed panel of highly 
respected Congolese and outside negotiators should be selected with the 
full support of the United States, France, Belgium, and other relevant 
powers to review and address the inconsistencies that have caused this 
crisis. The alternative is to let the Supreme Court certify Kabila's 
provisional victory and hand him another 5-year term. In which case, 
watch out: The opposition will reject this victory, but an emboldened 
Kabila, with questionable legitimacy, will assert his power with 
greater popular repression, triggering a cycle of violence with untold 
ramifications.
    After decades of mismanagement and chronic conflict in Congo, this 
election presented the people with a chance to rebuild their country. 
With its vast natural and human resources, Congo has the potential to 
be a regional power, as it once was, providing stability and leadership 
in an area known for turmoil. But if the Congolese are robbed of a fair 
and honest say in their national politics, such potential will remain 
but an illusion.

    Senator Coons. Thank you, Mr. Dizolele.
    All three of you have made direct reference to what is our 
primary focus today which is our grave concern about the 
legitimacy crisis that is produced by the widespread concerns 
and questions about not just the technical mechanics, but the 
actual outcome of the elections. And I have a question for all 
of you, if I could.
    You have all referred, either in your written testimony or 
your spoken testimony, to a reasonable process, to a plan B, to 
an active engagement by relevant powers in the multinational 
community to opportunities missed in the runup to the elections 
to insist on constitutional changes, or to push back on 
constitutional changes, to insist on better preparations of a 
technical and logistical nature. The Assistant Secretary spoke 
of the United States having offered active, prompt engagement 
in an audit and review, and several of you have spoken of that 
as insufficient. I agree with you that this is fundamentally a 
political problem and no matter what the outcome is here in the 
short term of the review of the election, there is a real risk 
of Congo slipping back into the tragic violence that caused 
what has been referred to as Africa's world war.
    If you would for our benefit review more concretely exactly 
what it is you think the United States or at least this 
committee can and should do to engage the international 
community to deploy the moral authority and resources of the 
United States in a way that will make a positive contribution 
to airing the real challenges of this election and to moving 
forward toward a productive and peaceful future for Congo. What 
exactly would you urge us to do?
    Mr. Schneider.
    Mr. Schneider. I think the point that you made is very 
important in terms of lessons learned. There were moments in 
the preelectoral process when, at that point, a combined 
international diplomatic message strongly to President Kabila 
that he was going down the wrong path and this would result in 
the country being isolated--that was not done. The kind of 
effort that was done on Nigeria was not done early enough here. 
That is one.
    Second, now it seems to us that there is an essential need 
to use, as you stated, all of the moral and political suasion 
of the international community. You have the largest United 
Nations peacekeeping force currently in the Congo. They also 
have political capabilities. The Secretary General should be 
engaged on this. The African Union has a major stake in the 
Congo moving in the direction of stability, and we believe that 
the United States can help to generate engagement by the 
African Union and the United Nations in a concerted and unified 
message to the Government of the Congo to permit independent, 
international verification of the process, either with the 
current government and CENI or parallel to it. There needs to 
be full international involvement and engagement at a very high 
diplomatic level. That, thus far, is not satisfied by 
contracting with electoral experts. That is No. 1.
    No. 2 is the Catholic Church which took a leading role in 
the observation with civil society in the Congo. They need to 
be a very strong dialogue partner in how to move forward. 
Similarly, civil society in the Congo is very active. They too 
need to be engaged fully in this process. And here again, the 
United States does have a record of dealing with civil society 
and it should be part of what we do moving forward in order to, 
in a sense, give them some of the resources necessary to engage 
in this process.
    But the fundamental issue is independent international 
verification and with the purpose, as I said earlier, of 
enfranchising those who were disenfranchised in order to try 
and move to a position that you do know who won the election 
and initially aiming at preventing the country from slipping 
down the path into regional and ethnic violence. And we already 
see in Katanga some of that taking place.
    Senator Coons. Thank you, Mr. Schneider.
    Mr. Gambino.
    Mr. Gambino. Thank you, Mr. Chairman.
    You certainly have asked a question that all of us are 
thinking about a lot and talking to people in the Congo and 
around the world about what are appropriate, very concrete 
steps to take.
    In addition to agreeing strongly with the points that Mark 
just made, let me just add two. Then, I would like to comment 
specifically on some of the points that Assistant Secretary 
Carson made, because what we can see is movement in the policy 
of the United States.
    At the beginning of this year, when the constitutional 
changes were made by President Kabila, moving from a two-round 
system to a one-round system, the only comment on this came 
from our Ambassador in Kinshasa, who referred to the change as 
an internal matter. He made no criticism whatsoever of the 
change.
    Many of us urged much greater involvement and concern; we 
kept getting replies that things were on track, that the 
electoral commission was really doing a good job, that the 
elections, with the support from the U.N. mission known as 
MONUSCO, would work out fine. We were looking at it closely. It 
really did not look that way to us. We kept saying please think 
about it more. It did not happen.
    Now we have this deeply flawed election and we are starting 
to see some movement in United States policy in a statement 
released yesterday by the State Department spokesperson.
    But here are the two points that I want to make. We still 
talk about working within existing legal remedies, but let us 
look at the electoral commission. Does one really think, given 
that the personnel of this electoral commission that were 
responsible for this charade in front of us, that we should 
expect the people of the Congo to rely upon them and have faith 
in anything they do? I do not see how one can credibly assert 
that. You keep the institution, but you certainly have to 
change the personnel. That seems to me very fundamental. I 
spoke about that in my testimony.
    The Supreme Court is to make a ruling, and in the present 
system there, they are supposedly the ultimate arbiters. On 
that point, I would defer to the head of the Catholic Church in 
Congo, Cardinal Monsenguo, who in a superb statement of just a 
few days ago urged the Congolese Supreme Court to do the right 
thing. But reading between the lines, if you will, there is the 
sense that for the Cardinal the Court is not the end of this 
process unless it does the right thing. So let us see what the 
Court does. If they do the right thing, whatever that might be, 
then we move in one direction. If, on the other hand, they 
reach a decision that looks as flawed as some of the actions we 
have seen from the electoral commission, then we are going to 
have to look very seriously at other activities like the ones 
talked about by Mark Schneider.
    The final point on that is that Assistant Secretary Carson 
in his testimony before you, in addition to using the phrase 
``existing legal remedies,'' also used the word ``rapid,'' that 
we need to work on these things rapidly. Now, I recognize that 
one wants to get out of this crisis as quickly as possible. But 
if you look at the mess that has been created by all these 
irregularities and vote manipulation and everything around this 
country with 18 million votes cast and all the myriad problems, 
it is not going to be sorted through in a matter of a few days 
or a few hours. It is just not possible given the scale of 
this.
    So we have to start to be reasonable about two things.
    One, how long is it going to take? And then if it is going 
to take a period of time, which I strongly suspect it will, 
what are the implications for maintaining short-term stability 
in the Congo in terms of governance structures, and for the 
support that comes from us and others around the world?
    Senator Coons. Thank you, Mr. Gambino.
    Mr. Dizolele.
    Mr. Dizolele. Thank you very much, Chairman.
    I think the first step is really the message of the United 
States. Our message has been, frankly, pathetic. I mean, at a 
time when Secretary Clinton is urging the Russians to march in 
the streets and reclaim their rights, we are getting the 
message that is very rosy when it comes to the DRC. Between the 
two countries, we know which country has suffered more 
calamities and which country needs this more than the other. 
You can answer that yourself. But it is ridiculous that for the 
entire process my colleagues have mentioned, the United States 
has given a nod to the process when everybody knows it has been 
really despicable, and I think we need to change that, if your 
committee can start sending a strong message that the United 
States stands for something. We should not be sounding like the 
Chinese. And so far in Congo, the United States diplomacy is 
not different from the Chinese. We cannot continue like that.
    So I think we need to put pressure. So like my friend Tony 
has just said, we should put pressure so that the process is 
not expedited. There is no point to expedite the process if 
this is going to unravel not maybe in 6 months, but maybe in a 
year. As things are, this is a ticking bomb. So we need to 
insist. Congo depends on us. I know that it is a sovereign 
country. It is my homeland but it is also a sick country that 
depends on us. We have tremendous leverage on the Government of 
DRC. The State Department does not like to acknowledge this, 
but I am sure they know that they have tremendous leverage that 
is not being used. We should use those levers and insist on a 
delay on the certification of results, and then we will follow 
what both Tony and Mark have just recommended, to start looking 
beyond the technical review, the politics of it so that 
disenfranchised Congolese voters finally will get their voice 
heard. This may mean that Kabila is proclaimed President, but 
people will have confidence in the process.
    And also, I think more importantly--this is something that 
has not been discussed often--is the crisis of personalities, 
as we look at this. Mr. Tshisekedi and his group of opposition 
leaders have a terrible relationship with the diplomatic 
community, and in the process, the diplomatic community loses 
sight of what really is at stake and start shortcutting people. 
But that is not really the issue here. The issue is beyond 
President Kabila and beyond Tshisekedi. So we need to look at 
the process, keeping that in mind.
    Thank you.
    Senator Coons. Let me, if I might, Mr. Dizolele, seek a 
clarification of your earlier testimony because you spoke in 
fairly stark terms as if the United-States-focused efforts by 
the Congress to make some impact on conflict minerals or on 
sexual violence were misplaced or misguided or ineffective or 
wasteful. What I think you were trying to convey to us was that 
these are important and vital issues that deserve attention, 
but that they exist within the larger context of a country 
whose politics and whose governance are the main enduring 
problem, and if we do not fix political legitimacy and we do 
not, on behalf of the United States, engage in governance 
questions, then we can do all the work we want to through Dodd-
Frank and conflict minerals and so forth, and we will not have 
addressed the real driver. Was that your point?
    Mr. Dizolele. Very much so, Mr. Chairman. And I will just 
illustrate a little bit.
    Congo is the size of Western Europe. So for us in the 
United States, it is one-third of the United States from the 
Canadian border to Florida. If we look at Vermont as eastern 
Congo, what is happening in Vermont is important for the 
country, but to claim that solving the problem in Vermont would 
solve the larger crisis in the country would not be correct. 
Part of the problem is that women that are being raped need 
help. There is no doubt about the fact they needed help 
yesterday, urgently. But the Kivus are part of the greater 
country. What is happening in the Kivus is happening because of 
what is not happening in the rest of the country, not the other 
way around. If women are being raped in the Kivus--there are 
about three questions that anybody asks whether you are a 
Tibetan or Chilean or Congolese. Why--pardon my French--the 
hell are these women being raped. Where is the government? Is 
anybody protecting them? We have lost sight of that when we 
look at these issues.
    Or if we look at the conflict minerals issue, then the 
issue is like, hey, why is this looting happening. Is anyone 
responsible? Is there any adult in the house, and where is this 
adult in the house? We should be starting putting pressure on 
the adult in the house and not create a set of schemes that 
keep on perpetrating the problems.
    The main problem with Dodd-Frank is that the legislation 
builds on the false premise that cleaning the mineral supply 
chain will cut militias' funding, reduce their access to 
weapons, and therefore bring peace. But even before it is 
implemented, this legislation has already put hundreds of 
thousands of Congolese out of work. In the meantime, mineral 
smuggling across the border, particularly with Rwanda, has 
increased. This smuggling is run by militia leaders who 
continue to benefit greatly from the illicit trade. More 
importantly, however, militias have other sources of income, as 
they tax all business activities in the territories that they 
control. In the end, with or without minerals, the conflict in 
eastern Congo will continue as long as we ignore the bigger 
context of the Congolese crisis. As such, if or when the 
legislation is implemented, Dodd-Frank will effectively certify 
the looting of DRC's mineral resources to everyone else's 
benefit but at the expense of the Congolese people.
    I will just finish with a story. I once visited Panzi 
hospital in Bukavu, and Dr. Denis Mukwege told me a story of a 
young woman. I will name her Sifa. Sifa was about 13 years old. 
She came from Shabunda, a few hours by road from Bukavu, where 
she had been raped. She came to Panzi. For those of you who 
have been to Panzi, Panzi is a small hospital. It is famous but 
it is very small. While this young woman was being treated, she 
used to do her makeup every morning and talk to the doctor and 
say, ``Papa, you see how beautiful I am. Whatever happens, do 
not send me back to Shabunda.''
    Six months later after she was fully healed, Dr. Mukwege 
against his own judgment and against the will of the woman, but 
because of capacity problems, sent her back to Shabunda. She 
came back about 6 months later. She had been raped again and 
this time it was worse. The surgery did not take and they ran 
further testing on her only to find out that she was HIV-
positive.
    So this woman, this Shabunda girl--she does not want the 
United States to just give $17 million, as Secretary Clinton 
promised when she did the tour of the area. She wants this 
sexual violence to stop. And in order for it to stop, we, the 
international community and humanity, have to have the courage 
and say this has to stop, start arresting people, start putting 
pressure on the adult in the house, which is the Congolese 
Government, not just on the U.N. because often we displace the 
discourse. Then we blame the U.N. We blame everybody else and 
we give a free ride to the Government of DRC. That is not the 
kind of policymaking that the Congolese people want.
    Thank you very much.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. Mr. Schneider, you said that there was 
obvious fraud in certain regions or provinces and there ought 
to be a revote in those provinces.
    And then, Mr. Gambino, you said the whole election was 
clearly fraudulent. Do you think there should be a revote in 
the entire country?
    Mr. Gambino. Senator Isakson, that is an extraordinarily 
important issue. I think the Congolese themselves are going to 
have to think that through, with help from international 
actors, experts, and others to think through a way to get to a 
reasonable democratic outcome.
    As I look at it--and I have looked pretty closely at the 
results around the country--we see obviously fraudulent results 
in Katanga. You have three large areas amounting to about 
three-quarters of a million votes where in two of them the 
results are 100 percent of the voters voted for President 
Kabila. So you can go through--and I have done this--hundreds 
of pages of results for each voting station where there were 
roughly 400 or 500 Congolese voting. Every single voter, we are 
to believe, went and cast his or her ballot for President 
Kabila in these polling places in each of these areas. That is 
one example.
    In certain areas of north Kivu, there are very clear 
reports of intimidation and extremely troubling results as you 
start looking at specific areas.
    Others have referred to the Kinshasa results. There were 
votes lost, perhaps as many as a million--and Mark Schneider 
has talked about this--where they know people voted and then 
the votes disappeared. So we have this as well.
    Are you going to be able to sort all that through and 
somehow come out to something and say we are absolutely 
confident that either Joseph Kabila or Etienne Tshisekedi did? 
If you can, fantastic. I am a little skeptical, frankly, given 
the scale that one sees. I would defer to experts.
    If we do not do it, then we have quite a problem. If you 
can revote in certain areas, OK. But if those areas amount to 
most of the province of Katanga, which is the size of Texas and 
which where over 3 million people voted, a lot of Kinshasa, a 
city of 10 million people and millions of voters, and 
substantial portions of other provinces--you know, you see 
where I am going. That starts to look like another full round 
of voting.
    I will just put out one more question for you to consider, 
and I do not have the answer.
    The Congolese had a system in 2006 which was a two-round 
system. You had over 30 candidates for President in 2006. If no 
one got over 50 percent, you went to a second round with the 
top two candidates. That is what happened. You had a second 
round against the top two candidates. President Kabila beat 
Jean Pierre Bemba 58 to 42.
    It seems to me that as you look at these horribly complex 
and flawed results right now, there are probably two things 
that we can all agree on. Nobody won more than 50 percent and 
the two top vote-getters are Joseph Kabila and Etienne 
Tshisekedi. It may be cleaner to think about some kind of 
competition that way. One can organize such an election 
relatively quickly. The Congo is slated to have its next round 
of elections nationwide in March. So we do have something 
coming forward. So as you think it through--I am certainly not 
making a proposal. I am just trying to think through with you 
some of the options that people are discussing right now to 
work through what is a mess without a clear, clean, rapid 
outcome right now that most of us see.
    Senator Isakson. Well, the reason I asked the question is 
from listening to all three of you, in particular Mr. Dizolele 
and his comments, I do not think a revote right now is really 
possible or would bring a result that would be any different 
without fundamental change in the process. Do you agree with 
that, Mr. Dizolele?
    Mr. Dizolele. I am sorry. I missed----
    Senator Isakson. I really do not think a revote would be 
possible to create any other change in the result immediately 
because of the given corruption that exists today. Is that 
correct?
    Mr. Dizolele. I think there is a lot of truth to that in 
the sense that Tony just mentioned that there are so many 
things that have to change. I mean, if we are going to have a 
revote, does that revote happen with the same team that we have 
in place? And if it does, then what does that mean?
    Senator Isakson. Well, let me interrupt you because you 
made the statement parenthetically. You said, well, maybe we 
ought to just let the President stay in for another year, but 
then charge them to have another election and structure the 
vote better. I think that is what you said.
    Mr. Dizolele. No; I did not make that statement.
    Senator Isakson. You did not make that statement?
    Mr. Dizolele. No. That was not me.
    Senator Isakson. OK. Somebody said that.
    Mr. Gambino. I did not say it, Senator, but I think what 
you asked is so important. But I am actually more optimistic 
about this than perhaps some others.
    We sometimes get a false dichotomy between the 2006 and the 
2011 elections. People pretend that in 2006 the international 
community did everything, and so the elections went reasonably 
well, and that in 2011 the Congolese did most everything and 
the results have turned out poorly. That is actually not true.
    In 2006, yes, the international community did more, played 
a better role, was more engaged. But there was a huge role 
played by a much better Congolese electoral commission and a 
much cleaner election all around. The Congolese did a fantastic 
job in 2006.
    I think this time around, as I have said and the others 
have said, one should make some changes in personnel, 
obviously, but also get the kind of heightened international 
engagement that Mark Schneider and others are talking about. If 
you came to a second round early next year, for example, 
Senator, surely you should have some people placed in some of 
those areas, Congolese observers, where we got the highly 
dubious reports that 100 percent of the voters were for Kabila. 
You know, some of these can be done. The Catholic Church had 
30,000 observers at this election. Some of these things can be 
done to get us to the kinds of credible outcomes that must be 
attained.
    Senator Isakson. Well, more transparency brings about a lot 
more accountability. There is no question about that.
    Mr. Schneider. If I could, it does seem to me that while we 
can come up with a variety of scenarios to get to an end, that 
has to be the result of negotiation in the DRC. And that is 
where I think you need to have a combined, unified 
international view, high-level, former Presidents from African 
countries that are authorized by the African Union, in a sense 
blessed by the United Nations and supported in terms of trying 
to bring about a mediation that says, OK, we believe there 
should be a second round for those two or revoting for these 
areas and we will have essentially a parallel process to 
determine the outcome.
    But there needs to be--and here is where I guess I disagree 
a little bit. I do think we need immediate international 
engagement in this effort at this time because I am very 
concerned that December 19--you heard the Supreme Court. That 
is the last date. Well, the Supreme Court decides on these 
disputes in-camera, closed sessions. Given what we have had 
thus far and what we know, it issues a result that says the 
preliminary results stand. Then you have essentially lit a 
match. And it just seems to me that between now and then you 
need to engage the international community to try and bring 
about some process of discussion aimed at a compromise.
    Senator Isakson. Well, my time is up and we are about to 
have a vote I think.
    But let me just add a comment to our Marine. Mr. Dizolele, 
when you made your comment, I reflected back 2 years ago when I 
was on the USS Eisenhower in a NATO exercise in the Atlantic 
and went down to the mess hall and sat at the Congolese table. 
There were 10 Congolese volunteers in the United States Navy 
serving our country on a fast track to citizenship basis. And I 
want to thank you for doing that and thank you on behalf of the 
American people.
    Mr. Dizolele. Thank you very much, Senator.
    Senator Coons. Senator Isakson was referring to--we had a 
scheduled 4 o'clock vote on the authorization for the Defense 
Department.
    Senator Isakson. Actually Senator Isakson was trying to 
make an excuse to make an exit because I have one other stop I 
gave got to make. [Laughter.]
    Thank you all for your testimony.
    Senator Coons. Well, then let me thank Senator Isakson for 
his good nature, his disciplined and steady contributions to 
the work of this subcommittee, and for the honor of serving 
with him.
    You have presented focused and concrete concerns about this 
election. I am sorry we have not gotten into more detail about 
the many other issues and challenges that face the DRC, the 
role of the newly appointed special representative to the DRC 
and the Great Lakes, the role that the U.N. peacekeeping 
mission can and should play in security sector reform, whether 
it is reasonably possible to certify conflict minerals as being 
conflict-free and whether that is relevant to improving future 
governance and outcomes in the east and northeast, what if 
anything more we can and should be doing to promote civil 
society and transparency, what we can do to ensure a more 
effective electoral commission and Supreme Court. These are all 
questions that I think are valued and important.
    Let me first say that I--and I suspect all the other 
members of this subcommittee--welcome your ongoing input as 
this very fluid situation continues to evolve. It is my hope to 
put out a statement promptly, possibly jointly with Senator 
Isakson, that reaches our conclusions from this hearing, from 
all the input that we have gotten. And our offices have gotten 
quite a bit of input from the Congolese community in the United 
States, for which we are grateful. And it is my hope that the 
United States will take an active and engaged role in convening 
the international community to try and ensure that we do not 
miss an opportunity. We may well have missed them in the runup 
to this election. And as I said in my opening statement, many 
of us have really hoped that this election would secure steady 
forward progress for the people of the Democratic Republic of 
the Congo toward a sustained democracy.
    I agree with you that this is a moment of great risk and 
that there is a real possibility that it will slip as Cote 
d'Ivoire did after a challenging contested election into 
enormous difficulty. There is a moment here, I think, for the 
faith community, for NGOs, for Congolese civil society, and for 
the international community to negotiate an appropriate 
resolution of what is a flawed election that could produce a 
political crisis.
    I am grateful for your testimony today. I look forward to 
your continued input, and as we move to a vote on an equally 
important issue for our Nation, I am grateful for your passion 
about improving the lives of the people of the Congo and about 
continuing America's role as one of the leaders in advancing 
democracy around the world. Thank you very much.
    We will leave the record open for 1 week from today given 
the number of other members of this subcommittee who had 
expressed strong interest but were unable to join us today.
    Thank you very much.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Assistant Secretary Johnnie Carson to Questions Submitted 
                        by Senator Barbara Boxer

    Question. In late November, elections were held in the DRC, and all 
signs suggest that they were anything but free and fair. The Carter 
Center stated that it found ``the provisional Presidential elections 
results . . . to lack credibility.'' And the head of the Catholic 
Church in the DRC said that the ``results are not founded in truth or 
justice.''
    The State Department's Web site describes our relations with the 
DRC government as ``very strong.'' The United States is also the 
largest donor to the DRC. For example:
    The United States provided more than $300 million in bilateral 
foreign aid to the DRC last year alone.
    The United States is the largest contributor to the U.N. 
Stabilization Mission in the DRC, contributing to almost one-third of 
its annual $1 billion budget.
    The U.S. military has trained a Congolese Army battalion, to which 
it is providing ongoing support.

  <bullet> How is the United States using its ``very strong'' 
        relationship with the DRC government to help prevent a 
        widespread outbreak of post-election violence?
  <bullet> Can we use our influence to help explore a negotiated 
        solution to the current election?

    Answer. The United States has been working hard to prevent post-
election violence in the Democratic Republic of the Congo (DRC). Our 
Ambassador to the DRC and I have been in constant contact with the 
Congolese authorities, key opposition leaders, the U.N. Special 
Representative in the DRC Roger Meece, other donors, and regional 
leaders to forestall violence resulting from the elections. Our message 
has been that all Congolese political leaders and their supporters act 
responsibly, renounce violence, and resolve any disagreements through 
peaceful constructive dialogue.
    At this time, we do not see a need for international negotiation; 
however. A rapid technical review of the electoral process by the 
Congolese authorities and outside experts may determine ways to provide 
more credible results, minimize irregularities, and generally provide 
guidance that will improve future elections.

    Question. Far too often, the perpetrators of sexual violence in the 
DRC are members of the Congolese Army, or FARDC.
    The FARDC is made up of ill-trained and ill-equipped soldiers, many 
of whom are former member of militias. Few are regularly paid or fed by 
the DRC Government. In turn, many prey on the communities that they are 
ostensibly responsible for protecting.
    A story told to Human Rights Watch by a 15-year-old-girl 
illustrates the devastation of the problem: ``There were six soldiers 
who came into my house. They first raped my 3-year-old sister, and then 
two of them raped me while the other looted our house. They threw my 
newborn baby onto the ground . . . the soldiers were wearing military 
uniforms . . . after they raped me, they took my mother away with them. 
She hasn't come back yet, and I think she must be dead. Five other 
houses . . . were visited the same night by the soldiers.''

  <bullet> How is this outrage [Congolese Armed Forces committing 
        sexual and gender-based violence] allowed to continue?
  <bullet> What pressure can the international community bring to bear 
        on President Kabila to reform the military?
  <bullet> Has the Congolese Government made any significant efforts to 
        pay members of the FARDC and remove those responsible for past 
        crimes?
  <bullet> What, specifically, is the U.S. Government doing on this 
        front?

    Answer. The perpetrators of this horrific sexual and gender-based 
in the Democratic Republic of the Congo (DRC) include the Democratic 
Forces for the Liberation of Rwanda (known by its French acronym--
FDLR), various Mai Mai groups and some elements of the Congolese Army 
(FARDC). This abuse is inexcusable and occurs largely because the state 
security forces--the police and military forces are largely 
unprofessional and in need of significant training and reform. The DRC 
has also been slow to remove those in its military who abuse human 
rights including Bosco Ntaganda and senior commanders such as Innocent 
Zimurinda. We have called on the DRC and regional states to honor their 
international obligations and arrest those for whom international 
arrest warrants have been issued. In addition, we have called on the 
DRC to arrest other senior commanders. We have pressed the DRC 
Government to make security sector reform a greater priority and more 
diligently pursue and prosecute perpetrators. The United States and the 
international community also are assisting the DRC Government to 
establish institutional structures and processes to support 
stabilization, including security sector reform, as well as to develop 
a professional military that will allow for an eventual drawdown and 
withdrawal of the U.N. Organization Stabilization Mission in the DRC 
(MONUSCO). With our and other international assistance, the DRC 
Government has begun paying the members of its armed forces more 
systematically. The European Union has helped the government implement 
a census of soldiers and a biometric database that is linked to the 
armed forces' payment system. As a result, more soldiers are receiving 
their regular salaries--though these salaries are often meager, and 
some elements of the armed forces have attempted to remain outside the 
biometric system. We insist that elements receiving U.S. training be 
paid on time.
    We also have assisted the DRC's judiciary and the investigations 
and prosecutions of a growing number of cases, including the high-
profile conviction in early 2011 of a colonel and several other 
officers for rape. The DRC Government is taking legal action against 
three of the so-called ``FARDC five'' officers whom the U.N. Security 
Council in 2009 alleged raped civilians. But tackling the problem 
effectively requires further prosecutions, which we and the 
international community continue to press for at the highest level.

    Question. In May of this year, I spearheaded a letter with Senator 
Moran and 12 of our colleagues to President Obama calling for the 
appointment of a Special Representative to the Great Lakes Region of 
Africa.
    In the letter, we noted the multitude of challenges facing the 
Great Lakes Region, including those in the DRC where ``extrajudicial 
killings and the systemic and pervasive use of rape and sexual 
violence, has destroyed the lives of countless civilians.''
    In particular, we stressed how helpful the appointment of a Great 
Lakes Special Representative could be, noting that such a position 
could help build upon the work of the ambassadors in the region and 
would send an important message that the Great Lakes Region is a high 
priority for the Obama administration.
    That is why I was so pleased to see the recent appointment by 
Secretary Clinton of Ambassador Barrie Walkley as the Special Advisor 
to the Great Lakes and the DRC.

  <bullet> Will Ambassador Walkley be fully empowered to negotiate with 
        regional governments, the Kabila government and international 
        entities, particularly at this critical time in the DRC. What 
        role will he play? Will there be any limitations placed on his 
        position?

    Answer. Yes, Ambassador Barrie Walkley will be negotiating with 
regional governments, the DRC Government and with others in the 
international community on Great Lakes issues. As Special Advisor, 
Ambassador Walkley will work closely with Secretary Clinton, Assistant 
Secretary for African Affairs Johnnie Carson, our ambassadors and 
missions in the field, and other State Department officials to devise, 
shape, and coordinate U.S. policy on cross-border security, political, 
economic, and social issues arising in the Great Lakes and the DRC. He 
will also coordinate with the interagency, the U.S. Congress and other 
nongovernmental organizations, and the private sector to address issues 
that cut across borders and bureaucratic divisions, including conflict 
minerals and sexual and gender-based violence.
                                 ______
                                 

Responses of Assistant Secretary Johnnie Carson to Questions Submitted 
                                   by
                       Senator Richard J. Durbin

    Question. According to some estimates, more than 1,100 women and 
girls are raped every day in the Congo. That is nearly one woman every 
minute. That is the worst record of sexual violence of any nation on 
Earth. During my most recent visit to Eastern Congo, I had the chance 
to return to Heal Africa, a hospital in Goma that specializes, in part, 
in treating victims of sexual violence. The scene of these women lining 
up in the dust to be treated for obstetric fistula and other horrific 
consequences of sexual violence is one I will never forget. I know 
Secretary Clinton had a chance to visit the hospital as well during her 
visit.

  <bullet> What steps are State and USAID taking to help reduce the 
        level of gender-based violence in the DRC?

    Answer. The U.S. Department of State shares your concern and sense 
of urgency about the continuing sexual and gender-based violence (SGBV) 
waged against women and children in the Democratic Republic of the 
Congo (DRC). In FY 2011, USAID's SGBV programs helped 1,286,595 people 
gain access to critical SGBV care and treatment services. In order to 
prevent SGBV, USAID's programs engage both men and women at the 
community and provincial levels through targeted advocacy campaigns. We 
are working with the DRC Government, the United Nations, and our 
international and regional partners to empower women, including 
increasing their involvement in the political process and their role in 
economic development.
    In addition, to make inroads on SGBV prevention, more needs to be 
done on security sector reform and strengthening the judicial sector. 
The absence of professionalism in the police and military forces is a 
key driver of many instances of this violence, and we have pressed the 
DRC Government to prosecute perpetrators and provided assistance to 
better enable them to do so. Our support to Congolese military justice 
institutions and the American Bar Association has enabled 
investigations and prosecutions of a growing number of cases, including 
the high-profile conviction in early 2011 of a colonel and several 
other officers for rape. The DRC Government is also prosecuting several 
of the so-called ``FARDC five'' officers identified in 2009 by the 
Security Council, who are alleged to have committed direct rape. The 
progress in these cases is welcome, but grossly insufficient and 
requires that the Congolese develop an independent and robust mechanism 
to try politically sensitive cases of high ranking officers. For this 
reason, we supported the Minister of Justice's legislative proposal to 
establish specialized mixed courts to address atrocity crimes, which 
would include international personnel on a temporary basis. Parliament 
recommended that the legislation needed to be modified to address 
constitutional issues, and we look forward to reengaging with the 
government, Parliament, and civil society on this issue. At the same 
time, we urge the GDRC to arrest known perpetrators, such as ICC-
indictee Bosco Ntaganda, in accordance with their international 
obligations. We will continue to press for these reforms at the highest 
level.

    Question. One of the problems mentioned to me in Congo by very 
brave and dedicated human rights NGOs was the impunity with which known 
human rights violators operated in Congo, notably in the ranks of the 
Congolese military. I spoke last year with then-U.N. Under Secretary 
General for Peacekeeping, Alain LeRoy, about ensuring that the 
important and sizeable U.N. peacekeeping forces in eastern Congo did 
not cooperate or assist any Congolese military units with known human 
rights violators in their ranks.

  <bullet> Can State comment on the Congolese Government's seeming 
        inability to go after these known criminals--is it a matter of 
        capacity or political will?
  <bullet> Can you also comment on the Congolese warlord, Bosco 
        Ntaganda, who is wanted by the International Criminal Court but 
        seems to operate and live with impunity in Goma?

    Answer. The Government of the Democratic Republic of the Congo 
(DRC) does not currently have sufficient political will or security and 
judicial capacity to arrest, prosecute, and imprison known or suspected 
criminals. The military and police require professionalization and the 
capacity and independence of the judicial system must be bolstered. To 
do so will require significantly more commitment on the part of senior 
Congolese leaders including the President, the Ministry of Defense, the 
Ministry of the Interior, and the Ministry of Justice.
    The National Congress for the Defense of the People (CNDP), the ex-
armed group led by ICC-indictee Bosco Ntaganda, and formerly backed by 
Rwanda, has been poorly integrated in the Congolese Armed Forces and 
maintains its own parallel command structure in eastern Congo where the 
Government of the Democratic Republic of the Congo (DRC) has little 
control or influence. Ntaganda surrounds himself with CNDP soldiers 
loyal to him and has threatened that if any of his men are investigated 
or prosecuted, he will pull the CNDP out of the Congolese Army and 
return to fighting the government. Nonetheless, it is the obligation of 
the DRC to arrest Bosco. We continue to urge the DRC Government to 
ensure that perpetrators of serious human rights and international 
humanitarian law are brought to justice in accordance with the DRC's 
international obligations. We also continue to call on regional states 
including Rwanda, to support Bosco's arrest. This support is key to the 
GDRC's willingness to arrest Bosco, as well as mitigating any potential 
violent fallout.
                                 ______
                                 

   ECI Paper ``Technical Issues Threaten Free, Fair, and Transparent 
    Elections in the Democratic Republic of the Congo: Urgent Steps 
       Required'' Submitted for the Record by Anthony W. Gambino
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
